DOCKET NO. ______
OCTOBER TERM 2020
═════════════════════════════════
IN THE
SUPREME COURT OF THE UNITED STATES
LEROY POOLER,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
═════════════════════════════════

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

═════════════════════════════════
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
═════════════════════════════════
CAPITAL CASE

Todd G. Scher
Fla. Bar No. 0899641
LAW OFFICE OF TODD G. SCHER
1722 Sheridan Street, #346
Hollywood, FL 33020
TEL: (754) 263-2349
FAX: (754) 263-4147
COUNSEL FOR PETITIONER

INDEX TO APPENDIX
APPENDIX A:

Opinion of Florida Supreme Court Under Review, Pooler v. State, 302
So. 3d 744 (Fla. 2020)

APPENDIX B:

Order, Florida Supreme Court Denying Rehearing, Pooler v. State,
Case No. SC18-2024 (Sept. 22, 2020)

APPENDIX C:

Order Denying Defendant’s Second Amended Motion to Vacate
Judgments of Convictions and Sentences, Circuit Court for the
Fifteenth Judicial Circuit in and for Palm Beach County, Florida, Case
No. 1995CF001117AXXXMB (Oct. 12, 2018)

APPENDIX D:

Opinion of Eleventh Circuit Court of Appeals Affirming Denial of
Petition for Writ of Habeas Corpus, Pooler v. Sec’y, Dep’t of Corr., 702
F.3d 1252 (11th Cir. 2012)

APPENDIX E:

Opinion of Florida Supreme Court Affirming Denial of First Motion for
Postconviction Relief, Pooler v. State, 980 So.2d 460 (Fla. 2008)

APPENDIX F:

Opinion of Florida Supreme Court on Direct Appeal, Pooler v. State,
704 So.2d 1375 (Fla. 1997)

Pooler v. State, 302 So.3d 744 (2020)

APPENDIX A

45 Fla. L. Weekly D1452, 45 Fla. L. Weekly S203

302 So.3d 744
Supreme Court of Florida.

Leroy POOLER, Appellant,
v.
STATE of Florida, Appellee.
No. SC18-2024
|
July 2, 2020
Synopsis
Background: Following affirmance of murder conviction
and imposition of death penalty, 704 So.2d 1375, and denial
of postconviction relief, 980 So.2d 460, defendant filed
successive motion for postconviction relief. The Circuit
Court, 15th Judicial Circuit, Palm Beach County, Jeffrey
Colbath, J., denied the motion. Defendant appealed.

The Supreme Court held that United States Supreme Court's
ruling in Hall v. Florida, 572 U.S. 701, 134 S.Ct. 1986, 188
L.Ed.2d 1007, that Florida law foreclosing further exploration
of capital defendant's intellectual disability if his IQ score
was more than 70 was unconstitutional, was not retroactively
applicable.
Affirmed.
*745 An Appeal from the Circuit Court in and for
Palm Beach County, Jeffrey Colbath, Judge - Case No
501995CF001117AXXXMB
Attorneys and Law Firms
Linda McDermott of McClain & McDermott, P.A., Estero,
Florida, for Appellant
Ashley Moody, Attorney General, Tallahassee, Florida, and
Leslie T. Campbell, Senior Assistant Attorney General, West
Palm Beach, Florida, for Appellee

Leroy Pooler appeals an order summarily denying his
successive motion for postconviction relief, which was filed
under Florida Rule of Criminal Procedure 3.851.1 We affirm
the denial of relief.
1

We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.

In 1996, Pooler was convicted of the first-degree murder of
his ex-girlfriend, Kim Wright Brown, burglary, and attempted
first-degree murder with a firearm. See Pooler v. State, 704
So. 2d 1375, 1377 (Fla. 1997). He was sentenced to death
for the first-degree murder following a jury's recommendation
for death by a vote of nine to three, and on direct appeal,
this Court affirmed Pooler's convictions and sentences. Id. at
1377, 1381. His sentence of death became final in 1998, when
the United States Supreme Court denied certiorari review.
Pooler v. Florida, 525 U.S. 848, 119 S.Ct. 119, 142 L.Ed.2d
96 (1998). We also affirmed the denial of Pooler's initial
postconviction motion. Pooler v. State, 980 So. 2d 460, 462
(Fla. 2008).
In 2015, Pooler filed a successive postconviction motion
claiming that he is intellectually disabled and entitled to relief
based on Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242,
153 L.Ed.2d 335 (2002), and Hall v. Florida, 572 U.S. 701,
134 S.Ct. 1986, 188 L.Ed.2d 1007 (2014); a claim seeking
relief under Hurst v. Florida, ––– U.S. ––––, 136 S. Ct.
616, 193 L.Ed.2d 504 (2016), and Hurst v. State, 202 So. 3d
40 (Fla. 2016); and a claim seeking relief under an alleged
Hurst-induced Caldwell2 claim. In October 2018, the circuit
court entered an order summarily denying Pooler's successive
postconviction motion finding that his intellectual disability
claim is time-barred and that Pooler is not entitled to Hurst
relief.
2

Caldwell v. Mississippi, 472 U.S. 320, 105 S.Ct. 2633,
86 L.Ed.2d 231 (1985).

First, Pooler is not entitled to postconviction relief based
on his intellectual disability claim. As this Court stated in
Phillips v. State, 45 Fla. L. Weekly S163, ––– So.3d ––––,
2020 WL 2569713 (Fla. May 21, 2020), Hall does not apply
retroactively. Accordingly, we affirm the postconviction
court's summary denial of Pooler's intellectual disability
claim.

Opinion
PER CURIAM.

Second, Pooler is not entitled to Hurst relief. See State v.
Poole, 45 Fla. L. Weekly S41, S48, ––– So.3d ––––, ––––,
2020 WL 3116597 (Fla. Jan. 23, 2020) (“The jury in Poole's
case unanimously found that, during the course of the first-

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Pooler v. State, 302 So.3d 744 (2020)
45 Fla. L. Weekly D1452, 45 Fla. L. Weekly S203

degree murder of Noah Scott, Poole committed the crimes
of attempted first-degree murder of White, sexual battery of
White, armed burglary, and armed robbery. Under this Court's
longstanding precedent interpreting Ring v. Arizona, [536
U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002)] and under
a correct understanding of Hurst v. Florida, this satisfied
the requirement that a jury unanimously find a statutory
aggravating circumstance beyond a reasonable doubt.”);
Pooler, 704 So. 2d at 1377 (“[Pooler] was convicted of
burglary and attempted first-degree murder with a firearm.”).
We also reject Pooler's Hurst-induced *746 Caldwell claim.
See Reynolds v. State, 251 So. 3d 811, 825 (Fla. 2018) (stating
that, because it did not violate Caldwell to refer to the jury's
role as advisory prior to the Hurst decisions, “a Caldwell
claim ... cannot [now] be used to retroactively invalidate the
jury instructions that were proper at the time under Florida
law”).
End of Document

Accordingly, we affirm the postconviction court's summary
denial of Pooler's successive postconviction motion.
It is so ordered.

CANADY, C.J., and POLSTON, LAWSON, MUÑIZ, and
COURIEL, JJ., concur.
LABARGA, J., recused.
All Citations
302 So.3d 744, 45 Fla. L. Weekly D1452, 45 Fla. L. Weekly
S203

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

APPENDIX B

Supreme Court of Florida
TUESDAY, SEPTEMBER 22, 2020
CASE NO.: SC18-2024
Lower Tribunal No(s).:
501995CF001117AXXXMB
LEROY POOLER

vs.

Appellant(s)

STATE OF FLORIDA
Appellee(s)

Appellant’s Motion for Rehearing and/or Reconsideration is hereby denied.
CANADY, C.J., and POLSTON, LAWSON, MUÑIZ, and COURIEL, JJ., concur.
LABARGA, J., recused.
GROSSHANS, J., did not participate.
A True Copy
Test:

kc
Served:
LESLIE T. CAMPBELL
TODD G. SCHER
HON. SHARON REPAK BOCK, CLERK
HON. JEFFREY J. COLBATH
REID PARKER SCOTT II
ALEATHEA HAYES MCROBERTS

Filing # 79284758 E-Filed 10/12/2018 04:07:06 PM

APPENDIX C

IN THE CIRCUIT COURT OF THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA
STATE OF FLORIDA,
v.

CRIMINAL DIVISION: R
CASE NO.: 1995CF001117AXXXMB

LEROY POOLER,
Defendant.
.ORDER DENYING DEFENDANT'S SECOND AMENDED MOTION
TO VACATE JUDGMENTS OF CONVICTIONS AND SENTENCES
THIS CAUSE came before the Court on Defendant Leroy Pooler's ("Defendant") "Second
Amended Motion to Vacate Judgments of Convictions and Sentences with Special Request for
Leave to Amend" (DE #744), filed pursuant to Florida Rule of Criminal Procedure 3.851 on April
13, 2017.

The State filed a Response to Defendant's Second Amended Motion to Vacate

Judgments of Convictions and Sentences (DE #745) on May 3, 2017. The Court has carefully
examined and considered Defendant's Second Amended Motion, the State's Response, and all
arguments presented by counsel, and has reviewed the court file and all applicable case law.

FACTUAL AND PROCEDURAL HISTORY
Defendant was convicted of First Degree Murder with a Firearm for the shooting death of
his ex-girlfriend, Kim Wright Brown. He also was convicted of Burglary of a Dwelling while
Armed with a Firearm and Attempted First Degree Murder with a Firearm.

The facts, as

summarized by the Florida Supreme Court, are as follows:
On January 28, 1995, Carolyn Glass, a long-time acquaintance of Kim Brown, told
her that Pooler had said he was going to kill her because if he could not have her,
no one else would. (Evidence showed that Kim Brown had begun seeing another
man.) Two days later, Pooler knocked on the front door of the apartment where
Kim and her younger brother, Alvonza Colson, lived with their mother. Seeing
Pooler through the door window, Kim told him that she did not want to see him
anymore. Alvonza opened the door halfway and asked Pooler what he wanted but
would not let him in. When Pooler brandished a gun, Alvonza let go of the door

FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 10/12/2018 04:07:06 PM

and tried to run out the door, but he was shot in the back by Pooler. Pooler pulled
Alvonza back into the apartment by his leg. Kim begged Pooler not to kill her
brother or her and began vomiting into her hands. She suggested they take Alvonza
to the hospital. Pooler originally agreed but then told Alvonza to stay and call

himself an ambulance while Pooler left with Kim. However, rather than follow
Pooler out the door, Kim shut and locked it behind him. Alvonza told Kim to run
out the back door for her life while he stayed in the apartment to call for an
ambulance. When he discovered that the telephone wires had been cut, he started
for the back door, just as Pooler was breaking in through the front entrance.
Pooler first found Alvonza, who was hiding in an area near the back door, but when
he heard Kim yelling for help, he left Alvonza and continued after Kim. When he
eventually caught up with her, he struck her in the head with his gun, causing it to
discharge. In front of numerous witnesses, he pulled her toward his car as she
screamed and begged him not to kill her. When she fought against going in the car,
Pooler pulled her back toward the apartment building and shot her several times,
pausing once to say, "You want some more?" Kim had been shot a total of five
times, including once in the head. Pooler then got into his car and drove away.
The jury recommended death by a vote of nine to three. The trial court found the
following aggravators: (1) that the defendant had a prior violent felony conviction
(contemporaneous attempted first-degree murder of Alvonza); (2) that the murder
was committed during the commission of a burglary; and (3) that the murder was
heinous, atrocious, or cruel. The trial court found as statutory mitigation that the
crime was committed while Pooler was under the influence of extreme mental or
emotional disturbance, but gave that f'mding little weight. The court found the
following proposed statutory mitigators had not been established: (1) the
defendant's capacity to appreciate the criminality of his conduct or to conform his
conduct to the requirements of the law was substantially impaired; (2) the defendant
acted under extreme duress or under the substantial domination of another person;
and (3) the defendant's age (he was 47).
As nonstatutory mitigation, the trial court found the defendant's honorable service
in the military and good employment record, as well as the fact that he was a good
parent, had done specific good deeds, possessed certain good characteristics, and
could be sentenced to life without parole or consecutive life sentences. The only
mitigator given considerable weight was Pooler's honorable military service; the
others were given some to little weight. The trial court expressly rejected as
unestablished nonstatutory mitigation that Pooler has a good jail record and an
ability to adapt to prison life; that he has low normal intelligence; that he has mental
health problems; that he is rehabilitable; that the homicide was the result of a heated
domestic dispute; and that he is unlikely to endanger others and will adapt well to
prison. Concluding that each of the three aggravators standing alone would
outweigh the mitigating evidence, the court sentenced Pooler to death.

Pooler v. State, 704 So. 2d 1375, 1377 (Fla. 1997) (footnote omitted).
Page 2 of 13

On direct appeal, the Florida Supreme Court affirmed Defendant's convictions and death
sentence. Id. at 1381. Defendant's judgment and sentences became final on October 5, 1998, with
the denial of certiorari by the United State Supreme Court. Pooler v. Florida, 525 U.S. 848 (1998).
On September 17, 1999, Defendant filed a Motion to Vacate Judgment of Conviction and
Sentence with Special Request for Leave to Amend. The State filed a Response to Defendant's
Motion on October 26, 1999, and on October 29, 1999, the Court entered an Order Denying
Defendant's Motion to Vacate Judgment of Conviction and Sentence with Special Request for
Leave to Amend and Adopting the State's Response. However, on January 13, 2000, the Court
entered an Agreed Order Vacating its denial of Defendant's Motion and granted Defendant leave
to file an amended motion. Defendant filed his Amended Motion to Vacate Judgment and
Sentence ("First Amended Motion to Vacate") on March 13, 2000, and the State filed its Response
to Defendant's [First] Amended Motion to Vacate Judgment and Sentence on May 5, 2000. An
evidentiary hearing was granted on several of Defendant's claims, but on September 17, 2000,
before the evidentiary hearing was held, Defendant filed a Motion to Stay 3.850 Proceedings based
on the Supreme Court's decisions in Atkins v. Virginia, 536 U.S. 304 (2002), and Ring v. Arizona,
536 U.S. 584 (2002). This Court denied the stay, but granted Defendant a continuance and leave
to file a supplemental motion.
Defendant subsequently filed a Supplemental Motion to Vacate Judgment and Sentence
("Supplemental Motion to Vacate") on November 7, 2002, claiming that his conviction and death
sentence were obtained in violation of Ring. Significantly, Defendant did not raise an Atkins claim
in his Supplemental Motion to Vacate. The State filed its Response to Defendant's Supplemental
Motion to Vacate on June 2, 2003.

Page 3 of 13

While Defendant's First Amended and Supplemental Motions to Vacate were still pending,
on November 19, 2003, Defendant filed a Motion to Determine Competency, and Drs. John
Spencer and Michael Brannon were appointed to evaluate Defendant and file reports.

A

competency hearing was held on November 12, 2004, and on November 29, 2004, the Court issued
an Order fmding Defendant competent to proceed.
The evidentiary hearing on Defendant's First Amended Motion to Vacate was fmally held
on May 16, 2005, and on November 4, 2005, the Court issued a written Order Denying Defendant's
[First] Amended Motion to Vacate Judgment.' The Florida Supreme Court affirmed the denial on
January 31, 2008. Pooler v. State, 980 So. 2d 460, 473 (Fla. 2008). The United States Supreme
Court denied certiorari on October 6, 2008. Pooler v. Florida, 555 U.S. 911 (2008).
On May 19, 2008, Defendant filed a federal Petition for Writ of Habeas Corpus, which was
denied. The Eleventh Circuit Court of Appeals affirmed the denial on December 17, 2012. Pooler

v. Sec 'y, Florida Dep 't ofCorrections, 702 F.3d 1252 (11th Cir. 2012). The United States Supreme
Court denied certiorari on October 7, 2013. Pooler v. Crews, 571 U.S. 874 (2013).
On May 26, 2015, Defendant filed a successive Motion to Vacate Judgments of
Convictions and Sentences with Special Request for Leave to Amend (DE #699) based on Atkins
v. Virginia, supra, and Hall v. Florida, 134 S. Ct. 1986 (2014). The State filed a Response to
Defendant's [Successive] Motion to Vacate Judgments of Convictions and Sentences with Special
Request for Leave to Amend (DE #704) on July 15, 2015. Then, following the United States
Supreme Court's decision in Hurst v. Florida, 136 S. Ct. 616 (2016), and the Florida Supreme
Court's decision upon remand of that case in Hurst v. State, 202 So. 3d 40 (Fla. 2016), Defendant

1 The Court's Order also denied the Ring claims made in Defendant's Supplemental Motion to
Vacate.

Page 4 of 13

filed an Amended Motion to Vacate Judgments of Convictions and Sentences with Special Request
to Amend (DE #738), as well as a Motion to Exceed Page Limitation (DE #740), on January 4,
2017. The State filed a Response to Defendant's Amended Motion to Vacate Judgments of
Convictions and Sentences (DE #743), but on March 16, 2017, the Court entered an Order (DE
#742) denying Defendant's Motion to Exceed Page Limitation, striking Defendant's Amended
Motion for exceeding the page limitation contained in Rule 3.851(e)(2), and granting Defendant
leave to file a second amended motion that comported with the rule's requirements.
Before the Court now is Defendant's Second Amended Motion to Vacate Judgments of
Convictions and Sentences with Special Request for Leave to Amend (DE #744) ("Second
Amended Motion to Vacate"), filed on April 13, 2017. The State filed its Response to Defendant's

Second Amended Motion to Vacate Judgments of Convictions and Sentences (DE #745) on May
3, 2017. The Court held a hearing on Defendant's Second Amended Motion to Vacate on July 28,

2017.
LEGAL ANALYSIS AND RULING
Florida Rule of Criminal Procedure 3.851 governs the filing of postconviction motions in
capital cases. A motion is successive "if a state court has previously ruled on a postconviction
motion challenging the same judgment and sentence." Fla. R. Crim. P. 3.851(e)(2). Successive
Rule 3.851 motions may be filed outside the one-year time period if the defendant shows that
newly discovered evidence has become available or a new constitutional right was made
retroactive to his case. Fla. R. Crim. P. 3.851(d)(2). The trial court may deny a successive motion
for postconviction relief without an evidentiary hearing "[i]f the motion, files, and records in the
case conclusively show that the movant is entitled to no relief." Fla. R. Crim. P. 3.851(f)(5)(B).

Page 5 of 13

In Defendant's Second Amended Motion to Vacate, he first claims that his death sentence
must be vacated because he is ineligible for the death penalty under Atkins v. Virginia, 536 U.S.

304 (2002), and Hall v. Florida, 134 S. Ct. 1986 (2014). Defendant then makes a number of
arguments as to why his death sentence violates the Sixth and Eighth Amendments under the
United States and Florida Supreme Court rulings in Hurst v. Florida, 136 S. Ct. 616 (2016), and
Hurst v. State, 202 So. 3d 40 (Fla. 2016). Each of Defendant's claims is addressed in turn.

A.

CLAIM ONE: DEFENDANT'S DEATH SENTENCE IS
UNCONSTITUTIONAL BECAUSE HE HAS NOT RECEIVED A
FAIR OPPORTUNITY TO SHOW THAT THE CONSTITUTION
PROHIBITS HIS EXECUTION DUE TO HIS INTELLECTUAL
DISABILITY.

Defendant first claims that his death sentence is unconstitutional because he has not had
the opportunity to demonstrate that he is intellectually disabled and therefore constitutionally
barred from being executed. In 2002, the United States Supreme Court ruled that executions of
intellectually disabled2 defendants constitutes cruel and unusual punishment in violation of the
Eighth Amendment, "and that the Constitution 'places a substantive restriction on the State's
power to take the life' of a mentally retarded offender." Atkins, 536 U.S. at 321 (quoting Ford v.
Wainwright, 477 U.S. 399, 405 (1986)). The Atkins Court declined to adopt a single method of
determining which offenders were intellectually disabled and whose executions were therefore
prohibited, instead leaving to the states "the task of developing appropriate ways to enforce the
constitutional restriction upon [their] execution of sentences." Id. at 317 (internal quotations
omitted, alteration original).
Section 921.137, Florida Statutes (2018), thus prohibits the execution of intellectually

2 Formerly referred to as "mentally retarded." See Atkins v. Virginia, 536 U.S. 304, 321 (2002);
§§ 921.137, Fla. Stat. (2002), 393.063(24), Fla. Stat. (2018).

Page 6 of 13

disabled defendants. As defined in the statute, "intellectually disabled" means "significantly
subaverage general intellectual functioning existing concurrently with deficits in adaptive behavior
and manifested during the period from conception to age 18." § 921.137(1), Fla. Stat. (2018).
"Significantly subayerage general intellectual functioning" means "performance that is two or
more standard deviations from the mean score on a standardized intelligence test specified in the
rules of the Agency for Persons with Disabilities." Id.3

In Cherry v. State, 959 So. 2d 702, 714 (Fla. 2007) (per curiam), the Florida Supreme
Court strictly construed this statutory language to establish a bright-line cutoff of 70 for IQ scores
when determining whether a defendant is intellectually disabled and therefore barred from
execution. Under the rule announced in Cherry, an offender with an IQ score above 70 was
deemed not intellectually disabled and was precluded from presenting any additional evidence of

intellectual disability. See, e.g., Nixon v. State, 2 So. 3d 137, 142-43 (Fla. 2009) (per curiam).
But in Hall v. Florida, 134 S. Ct. 1986, 1994-95 (2014), the United States Supreme Court ruled
that the strict cutoff of 70 was unconstitutional because it did not take into account the test's known
standard error of measurement4 and took a defendant's score as conclusive without regard for other
evidence of intellectual disability. The Court held that "when a defendant's IQ test score falls
within the test's acknowledged and inherent margin of error, the defendant must be able to present
additional evidence of intellectual disability, including testimony regarding adaptive deficits." Id.
at 2001. The Court specified that individuals with an IQ test score "between 70 and 75 or lower"

3 The statutory language quoted here is substantively identical to that contained in the statute when
it was first adopted. See § 921.137(1), Fla. Stat. (2001); Ch. 2001-202, § 1, Laws of Fla. (2001).
4 An IQ test's standard error of measurement is "a statistical fact" that reflects the "inherent
imprecision of the test itself" and the "reality that an . . . individual's score is best understood as a
range" generally consisting of five points on either side of the recorded score. Hall v. Florida, 572
U.S. at 1996 (citations omitted).

Page 7 of 13

fall within this range of error. Id. at 2001 (citing Atkins, 536 U.S. at 309, n. 5).
Defendant claims that evidence in the record demonstrates that his IQ is within this range.
Specifically, he cites to an IQ test performed by Dr. Michael Brannon during previous
postconviction proceedings that resulted in an IQ score of 75, further noting that Dr. Brannon's
test results were consistent with an IQ test performed while Defendant was in high school on which
he also scored a 75.5 Accordingly, Defendant now argues that Hall entitles him to a hearing at
which he is given the opportunity "to present additional evidence of intellectual disability,
including testimony regarding adaptive deficits." Hall, 134 S. Ct. at 2001.
Although Defendant's sentence became final long before the decision in Hall was
announced, the Florida Supreme Court determined in Walls v. State, 213 So. 3d 340, 346 (Fla.
2016), that the United States Supreme Court's decision in Hall should be applied retroactively.
However, the Florida Supreme Court has also determined that in order for Hall to apply in a given
case, the defendant must have raised a timely Atkins claim under Florida Rule of Criminal
Procedure 3.203. See, e.g., Walls, 213 So. 3d at 348 (Pariente, J., concurring). As relevant here,

when first adopted in 2004, Rule 3.203(d)(4) provided:
(C) If a death sentenced prisoner has filed a motion for postconviction relief and
that motion has not been ruled on by the circuit court on or before October 1, 2004,
the prisoner may amend the motion to include a claim under this rule within 60

days after October 1, 2004.
Amendments to Florida Rule of Criminal Procedure and Florida Rules ofAppellate Procedure,

875 So. 2d 563, 570 (Fla. 2004). Rule 3.203(f) further provided (and still does provide) that "[a]

5 As Defendant acknowledges, the record in this case also reveals that during a pretrial competency
evaluation, Dr. Lawrence Levine administered an IQ test on Defendant that yielded an IQ score of
80. (Tr. 1384:17-19.) Further, Dr. Stephen Alexander, who also performed a competency
evaluation at that time, "estimated that Pooler's IQ was between 75 and 85," Pooler v. State, 980
So. 2d at 468, but Dr. Alexander acknowledged that this was a "guess[]," and that he did not
actually administer an IQ test. (Tr. 1491:25-1429:7.)

Page 8 of 13

claim authorized under this rule is waived if not filed in accord with the time requirements for
filing set out in this rule, unless good cause is shown for the failure to comply with the time
requirements." Id. at 571.
The Florida Supreme Court first affirmed the summary denial of a defendant's post-Hall
Atkins claim as time-barred in an unpublished order issued in Rodriguez v. State, 250 So. 3d 616
(Fla. 2016) (Mem). There, the defendant had not asserted an Atkins intellectual disability claim
under Rule 3.203 until 2015, following the Supreme Court's decision in Hall. Id. Pursuant to
Rule 3.203(f), the defendant argued he had "good cause" for not raising the claim earlier, and that
"only after the United States Supreme Court decided Hall v. Florida . . . did he have the basis for
asserting an intellectual disability claim." Id. (citation omitted). The trial court rejected the
defendant's arguments and denied the motion as time-barred, concluding "there was no reason that
Rodriguez could not have previously raised a claim of intellectual disability based on Atkins v.
Virginia." Id. The trial court also specifically concluded "that Rodriguez could not have relied on

Cherry v. State, 959 So. 2d 702 (Fla. 2007), which established the bright-line cut-off of 70 for IQ
scores disapproved of in Hall, because he never raised an intellectual disability claim after Atkins
as required by Rule 3.203." Id. The Florida Supreme Court explicitly affirmed the trial court's
summary denial "for the reasons stated by the trial court." Id.
The Florida Supreme Court recently reaffirmed its position on this issue in Blanco v. State,
249 So. 3d 536, 537 (Fla. 2018), holding that "a defendant who sought to raise an intellectual
disability claim under Atkins for the first time in light of Hall" was foreclosed from doing so under
the time-bar contained within Rule 3.203. (citing Rodriguez, 250 So. 3d 616).
In the instant case, Defendant filed his First Amended Motion to Vacate on March 13,
2000. On September 20, 2002, before the Court had issued a final ruling on his Motion, Defendant

Page 9 of 13

filed a motion to stay the postconviction proceedings specifically based on the Atkins and Ring
decisions, and this Court granted him leave to file an amended motion making additional claims
based on those decisions. While Defendant filed a Supplemental Motion to Vacate raising an
additional claim based on Ring, he failed to raise an additional claim based on Atkins. Nor did he
ever file a separate motion raising his Atkins claim under Rule 3.203(d)(3)(C) at any time prior to
this Court ruling on his First Amended and Supplemental Motions to Vacate on November 4, 2005.
Accordingly, the Court finds Defendant's claim is time-barred.
Defendant argues that he was unable to raise his Atkins claim at the time prescribed in Rule
3.203(d)(3)(C) because "[p]rior to the issuance of the decision in Hall v. Florida, Pooler had no
notice that an IQ score above 70 did not automatically preclude his claim that his intellectual
disability rendered his death sentence to be in violation of the Eighth Amendment." The Florida
Supreme Court rejected this precise argument in Rodriguez and Blanco, requiring this Court to do
so now. Under Rodriguez and Blanco, Defendant's failure to raise an Atkins claim within the time
period prescribed in Rule 3.203(d)(3)(C) constitutes a waiver of that claim under Rule 3.203(f).6
Accordingly, Claim One of Defendant's Second Amended Motion to Vacate must be denied.

6 While this Court is obligated to follow the Florida Supreme Court's precedent on this issue, the
Court questions whether that precedent, and specifically, its strict application of the procedural
time-bar in cases such as this, is at odds with the United States Supreme Court's rulings in Atkins
and Hall. The Supreme Court made clear in those cases that the issue was not whether an
intellectually disabled defendant has a right to not be executed, but whether "the Constitution
'places a substantive restriction on the State's power to take the life' of a[n intellectually disabled]
offender." Atkins, 536 U.S. at 321 (quoting Ford, 477 U.S. at 405). The distinction between a
substantive right and a substantive bar on state power is significant: a right can be waived by its
holder, but a constitutional bar on state power is more absolute.
It is with that distinction in mind this Court has struggled to reconcile Hall's holding with the strict
application of Rule 3.203's time-bar required by the Florida Supreme Court in Rodriguez and
Blanco. To be clear, this Court recognizes our justice system has a compelling and constitutional
need for finality, and perhaps no more is that true than in cases involving the death penalty. See,
e.g., Witt v. State, 387 So. 2d 922, 924-27 (Fla. 1980). But if Atkins represents a substantive bar

Page 10 of 13

B.

CLAIMS TWO, THREE, FOUR, AND FIVE: DEFENDANT'S
DEATH SENTENCE VIOLATES THE SIXTH AND EIGHTH
AMENDMENTS AND HE IS ENTITLED TO RELIEF UNDER
HURST V. FLORIDA AND HURST V STATE.

Defendant also claims that his death sentence violates the Sixth and Eighth Amendments

under Hurst v. Florida, 136 S. Ct. 616 (2016), and Hurst v. State, 202 So. 3d 40 (Fla. 2016).
Defendant argues that the Hurst decisions require a new penalty phase, as well as a re-evaluation
of Defendant's previously litigated ineffective assistance of counsel claims. The Court disagrees.
The Florida Supreme Court has made clear that "Hurst does not apply retroactively to
capital defendants whose sentences were final before the United States Supreme Court issued its
opinion in Ring." Mosley v. State, 209 So. 3d 1248, 1274 (Fla. 2016) (citing Asay v. State, 210
So. 3d 1, 22 (Fla. 2016)). This line of demarcation governing the retroactive application of Hurst
has been repeatedly affirmed by the Florida Supreme Court. E.g., Hitchcock v. State, 226 So. 3d

216, 217 (Fla. 2017), cert. denied, Hitchcock v. Florida, 138 S. Ct. 513 (2017); Zack v. State, 228
So. 3d 41, 47-48 (Fla. 2017); cert. denied, Zack v. Florida, 138 S. Ct. 2653 (2018); Marshall v.

on State power-as both the United States and Florida Supreme Courts have clearly held that it
does-how can it ever be "waived" by a defendant? Under this Court's reading ofAtkins and Hall,
as well as the majority opinion in Walls, the execution of an intellectually disabled person would
violate the Eighth Amendment in all cases, not just those in which an intellectually disabled person
timely raised the issue. See also Walls, 213 So. 3d at 348-49 (Pariente, J., concurring) ("More
than fundamental fairness and a clear manifest injustice, the risk of executing a person who is not
constitutionally able to be executed, trumps any other considerations this Court looks to when
determining if a subsequent decision of the United States Supreme Court should be applied.").
That is why this Court finds strict application of a procedural time-bar to prevent an evidentiary
hearing in this context so troubling, particularly when, as here, there appears to be evidence in the
record that would support at least granting an evidentiary hearing on this issue had Defendant
timely filed his claim.
Regardless, while this Court may have concerns about the implications of the precedent described
above, that it is duty-bound to follow that precedent this Court has no doubt. See, e.g., State v.

Washington, 114 So. 3d 182, 184 (Fla. 3d DCA 2012) ("While a lower court is free to disagree
and to express its disagreement with an appellate court ruling, it is duty-bound to follow it.").
Page 11 of 13

Jones, 226 So. 3d 211 (2017), cert. denied Marshall v. Florida, 138 S. Ct. 2677 (2018); Pope v.
State, 237 So. 3d 926, 926-927 (Fla. 2018), cert. denied, Pope v. Florida, 2018 WL 3647876 (Oct.
9, 2018); Jennings v. State, 43 Fla. L. Weekly S427a, 2018 WL 4784074 (Fla. Oct. 4, 2018); Shere

v. State, No. SC17-1703, 2018 WL 4346801 (Fla. Aug. 31, 2018).
As Defendant's sentence became fmal on October 5, 1998, nearly four years prior to the
United States Supreme Court's decision in Ring v. Arizona, Defendant is not entitled to relief based
on the United States Supreme Court's decision in Hurst v. Florida nor the Florida Supreme Court's
decision in Hurst v. State. Therefore, Claims Two, Three, and Four of Defendant's Second
Amended Motion to Vacate must be denied. Additionally, because the Hurst decisions cannot be
retroactively applied to Defendant's case, his argument in Claim Five for the reconsideration of
all previously litigated postconviction claims must be denied as well. See, e.g, Zakrzewski v.

State, 43 Fla. L. Weekly S374a, 2018 WL 4496571 (Sept. 20, 2018).
Accordingly, it is hereby
ORDERED and ADJUDGED that Defendant Leroy Pooler's Second Amended Motion
to Vacate Judgments of Convictions and Sentences with Special Request for Leave to Amend is

DENIED WITHOUT FURTHER HEARING. Defendant has thirty (30) days in which to
Appeal this Order.
DONE and ORDERED in Chambers at West Palm Beach, Palm Beach County, Florida,
this

day of October, 2018.

JEF
Y OLBATFÍ
C cuit Judge
Service List on following page

Page 12 of 13

Copies provided to:

Linda McDermott, Esq., McClain & McDermott, P.A., 20301 Grande Oak Blvd., Suite 118-61,
Estero, Florida 33928 (lindammedermott@msn.com)
Leslie T. Campbell, Esq., Assistant Attorney General, 1515 North Flagler Drive, Suite 900, West

Palm Beach, Florida 33401 (CAPAPP@myfloridalegal.com)
(Leslie.Campbell@myfloridalegal.com)
Reid Scott, Esq., Assistant State Attorney, 401 North Dixie Highway, West Palm Beach, Florida
33401 (RScott@sa15.org)
Aleathea McRoberts, Esq., Assistant State Attorney, 401 North Dixie Highway, West Palm Beach,

Florida 33401 (AMcRoberts@sa15.org)

Page 13 of 13

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)

APPENDIX D

23 Fla. L. Weekly Fed. C 1717

702 F.3d 1252
United States Court of Appeals,
Eleventh Circuit.

Leroy POOLER, Plaintiff–Appellant,
v.
SECRETARY, FLORIDA DEPARTMENT
OF CORRECTIONS, Attorney General,
State of Florida, Respondents–Appellees.
No. 12–12059.
|
Dec. 17, 2012.
|
Rehearing Denied Jan. 18, 2013.
Synopsis
Background: Following affirmance of his Florida conviction
and death sentence, 704 So.2d 1375, death row inmate
petitioned for federal habeas corpus relief. The United States
District Court for the Southern District of Florida, No. 9:08–
cv–80529–KAM, Kenneth A. Marra, J., denied petition.
Inmate appealed.

Holdings: The Court of Appeals, Hull, Circuit Judge, held
that:

Attorneys and Law Firms
*1254 Linda McDermott (Court-Appointed), McClain &
McDermott, PA, Wilton Manors, FL, John Paul Abatecola
(Court-Appointed), Estero, FL, for Plaintiff–Appellant.
Leslie Teresa Campbell, Atty. General's Office, West Palm
Beach, FL, for Respondents–Appellees.
Appeal from the United States District Court for the Southern
District of Florida.
Before DUBINA, Chief Judge, and HULL and PRYOR,
Circuit Judges.
Opinion
HULL, Circuit Judge:
Florida death row inmate Leroy Pooler appeals the district
court's denial of his 28 U.S.C. § 2254 petition for a writ
of habeas corpus. Pooler argues that his trial counsel was
constitutionally ineffective in the penalty phase of his murder
trial for (1) failing to discover that certain information Pooler
himself told counsel about his background was false, and
(2) relying on court-appointed competency experts to testify
instead of retaining defense experts to investigate mitigation
evidence specifically. The Florida state courts denied Pooler's
ineffective assistance of counsel claims. After review and oral
argument, we conclude, as did the district court, that the state
courts' denial of Pooler's claims was not unreasonable. We
affirm.

counsel's investigation of mitigating evidence and his
strategic decisions fell within range of competent assistance;
counsel's decision to rely on court–appointed mental health
experts was reasonable strategy;
counsel reasonably declined to follow up on information
about defendant's alcohol use; and
counsel's refusal to present certain evidence at penalty phase
did not prejudice defendant.
Affirmed.

I. BACKGROUND
A. Facts of the Crime
On January 30, 1995, Pooler murdered his ex-girlfriend, Kim
Brown, after learning that she had begun seeing another man.
Before the murder, Pooler threatened to kill Brown. Two days
later, Pooler went to Brown's apartment and shot her five
times while she begged Pooler not to kill her. Pooler also
shot Brown's younger brother. The Florida Supreme Court
summarized the evidence presented at the guilt phase of
Pooler's trial:
On January 28, 1995, Carolyn Glass, a long-time
acquaintance of Kim Brown, told her that Pooler had said
he was going to kill her because if he could not have her,
no one else would.... Two days later, Pooler knocked on
the front door of the apartment where Kim and *1255 her

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

younger brother, Alvonza Colson, lived with their mother.
Seeing Pooler through the door window, Kim told him that
she did not want to see him anymore. Alvonza opened the
door halfway and asked Pooler what he wanted but would
not let him in. When Pooler brandished a gun, Alvonza
let go of the door and tried to run out the door, but he
was shot in the back by Pooler. Pooler pulled Alvonza
back into the apartment by his leg. Kim begged Pooler
not to kill her brother or her and began vomiting into her
hands. She suggested they take Alvonza to the hospital.
Pooler originally agreed but then told Alvonza to stay and
call himself an ambulance while Pooler left with Kim.
However, rather than follow Pooler out the door, Kim shut
and locked it behind him. Alvonza told Kim to run out
the back door for her life while he stayed in the apartment
to call for an ambulance. When he discovered that the
telephone wires had been cut, he started for the back door,
just as Pooler was breaking in through the front entrance.
Pooler first found Alvonza, who was hiding in an area near
the back door, but when he heard Kim yelling for help, he
left Alvonza and continued after Kim. When he eventually
caught up with her, he struck her in the head with his gun,
causing it to discharge. In front of numerous witnesses, he
pulled her toward his car as she screamed and begged him
not to kill her. When she fought against going in the car,
Pooler pulled her back toward the apartment building and
shot her several times, pausing once to say, “You want some
more?” Kim had been shot a total of five times, including
once in the head. Pooler then got into his car and drove
away.
Pooler v. State, 704 So.2d 1375, 1377 (Fla.1997) (“Pooler I”).
Police arrested Pooler at his home. The State indicted him on
charges of first-degree murder, attempted first-degree murder,
and armed burglary. The state trial court appointed veteran
criminal defense attorney Michael Salnick to represent
Pooler.1
1

At the time of his appointment to represent Pooler,
Salnick had been practicing law for about sixteen years.
Salnick had experience handling murder cases and
penalty-phase proceedings.

B. Trial Counsel's Investigation of Mitigating Evidence
In May 1995, trial counsel Salnick moved the court for
funds to hire an investigator to help prepare for trial, and
also specifically to travel to Louisiana—where Pooler grew
up and where his family still lived—to interview witnesses

“for Phase 2 [i.e., penalty phase] discovery.” The state trial
court granted the motion, and Salnick retained an experienced
private investigator, Marvin Jenne.
Salnick and Jenne had worked together “in almost every
significant case” Salnick had in private practice.2 Salnick
instructed Jenne to “find anything and everything” he could
about Pooler, whether good or bad. Salnick, as he later
testified in postconviction proceedings, wanted to consider
anything that would save his client's life.
2

At the time of Pooler's case, Jenne had been an
investigator for fifteen years and had worked on five to
ten capital cases.

Investigator Jenne's invoice includes entries showing these
penalty-phase-related efforts: (1) attending a 2.2 hour
meeting with Pooler to discuss “potential family members in
Louisiana to be interviewed in Phase II investigation”; (2)
sending letters to Pooler's family members in Louisiana; (3)
making telephone calls to family members *1256 Delores
Pooler, Darren Warren, and Carolyn Upps; (4) traveling to
Baton Rouge, Louisiana for three days to interview Pooler's
family members regarding mitigation; (5) sending multiple
letters to schools Pooler attended; and (6) attending a 1.9 hour
meeting with Pooler to discuss the interviews with Pooler's
family members.3
3

Jenne's records contain the name and telephone number
of Pooler's nephew Brian Warren, who lived in Orlando,
Florida. Jenne did not recall whether he ever spoke with
Brian Warren.

Pooler told Salnick and Jenne that he graduated high school,
had four daughters in Louisiana, and worked for seven years
at a moving company. Pooler also reported that he served in
the United States Marine Corps during the Vietnam War, reenlisted after his original period of enlistment, and received
an honorable discharge.
Investigator Jenne tried to corroborate all the background
information he received from Pooler by talking with
other persons. Jenne made telephone calls and sent letters
requesting Pooler's school records, but he “was basically
told [the records] were not available.” Jenne asked Pooler's
relatives, including his father, whether Pooler graduated from
high school. The relatives said Pooler graduated.
The defense made an effort to obtain Pooler's military records,
but the attempt was unsuccessful. Pooler's brother confirmed

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

that Pooler served in the Marines and was honorably
discharged. Jenne asked other relatives about Pooler's military
service, and all of them said he served honorably in Vietnam.
Jenne obtained some employment records relating to
Pooler's work history in Palm Beach County, Florida. Jenne
interviewed two of Pooler's co-workers at the moving
company in West Palm Beach, Alice Bradford and Carlton
Weeks. Salnick decided Alice Bradford would be the better
witness because Weeks, who was Pooler's supervisor, made
some comments that Salnick “thought could have been
troublesome and if he was deposed and it was further explored
there might have been some more negative information that
came out.”
Weeks stated that Pooler was a “good worker as long as things
went totally his way,” but Pooler was “aggressive” and had
“a chip on his shoulder.” Pooler was short-tempered, wanted
to take charge on every task he was assigned, and most of
his co-workers “did not care to work with him.” Because
of Pooler's aggressiveness, there was “[a]lways a problem”
between him and his co-workers. Pooler “was just narrow
minded and hard headed and very aggressive.” Pooler got into
arguments with co-workers that Weeks had to resolve. Weeks
found it difficult to find people to work with Pooler “because
of his temperament.”
Furthermore, Weeks believed that Pooler “appear[ed] to be a
violent person.” Pooler owned a gun and sometimes brought
it to work. One time, Pooler got into an argument with a coworker and returned with his gun and was “waving it around
threatening people.” In fact, Salnick reported that “[o]ne of
the things that ran through a lot of stuff that we looked at, was
that Mr. Pooler had a violent background, he had been known
to carry a gun, chased people, he'd been known to argue, to
hit somebody.”
The defense team investigated whether Pooler had a
drinking problem, which entailed obtaining police reports
and interviewing relatives and current and former employers.
Salnick discovered before trial that Pooler had gone to the
police department a few hours before Brown's murder *1257
to report a crime. The police report stated that Pooler had been
sitting in his car early that morning with a friend of Pooler's
girlfriend. Pooler “fell asleep due to intoxication,” and when
he awoke about two hours later, “his wallet was in his front
pocket and $301.00 were missing.” Pooler reported the theft
occurred about 3:00 am, and he arrived at the police station
at 6:43 am.

Pooler told Salnick that the woman who robbed him was a
prostitute. Salnick did not want the jury to be aware of Pooler's
time spent with a prostitute a few hours before he murdered
his ex-girlfriend, stating later that “[t]here is no way I would
have done that. I just didn't think it was appropriate.”4
4

Moreover, Salnick chose not to pursue a voluntary
intoxication defense in the guilt phase because Pooler
told Salnick he did “not want a defense that is going to
admit that he committed the crime.”

C. Pretrial Competency Hearing
In November 1995, the state trial court held a hearing to
determine whether Pooler was competent to stand trial. The
state trial court appointed clinical neuropsychologist Dr.
Laurence S. Levine and psychiatrist Dr. Norman Silversmith
to examine Pooler and testify at the competency hearing.
Dr. Levine examined Pooler for six hours. Dr.
Levine interviewed Pooler, administered a number of
neuropsychological tests, and reviewed Pooler's jail medical
records and arrest record. Among the tests Dr. Levine
administered was the Wechsler Adult Intelligence Scale–
Revised (“WAIS–R”). Pooler's overall score was 80, which
was at the bottom of the low-average range. Dr. Levine found
no evidence of malingering.
Dr. Levine found Pooler overall to be competent. Dr. Levine
also found that Pooler “would be expected to have some
difficulties,” though not insurmountable ones, in helping his
counsel to plan his defense and to challenge the State's
witnesses. Pooler's attention functioning “was not terribly
impaired but it was not optimum.” Additionally, Pooler's
vocabulary and reading ability were “far lower than the
average range.” Thus, Pooler would “require somewhat more
support and more explanation.” Nevertheless, Dr. Levine
opined that Pooler “was a fine subject,” “listened carefully
to [Levine's] explanation of the evaluation,” and “responded
very appropriately and intelligently with regard to protecting
[his] confidential [legal documents].”
Dr. Levine believed it possible that Pooler had
hypothyroidism and psychomotor retardation, which could
affect his ability to assist counsel. Dr. Levine recommended
that his attorney take time to help explain complex legal issues
to Pooler and use simple language in doing so.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

Pooler reported no prior psychiatric treatment to Dr. Levine.
All Dr. Levine could find in the records he reviewed was
treatment for depression following Pooler's arrest for Brown's
murder.
Psychiatrist Dr. Norman Silversmith, the second expert to
testify at the competency hearing, examined Pooler for about
an hour. Dr. Silversmith interviewed Pooler but “did not run
any standard clinical psychological tests.” Dr. Silversmith's
questioning of Pooler included “background information,
marital status, school history, work histories, and ... medical
history.”
Pooler appeared to have no difficulty understanding Dr.
Silversmith, had an intact memory, and was not delusional
or confused. Pooler's psychological functioning was within
normal limits.
*1258 Dr. Silversmith opined that Pooler was competent
to stand trial. Although the purpose of Dr. Silversmith's
evaluation of Pooler was competency and not “to make a
diagnostic impression determination,” he nevertheless felt
“there was no question that there was a personality or
character disorder” present, though he “did not specify
whether it would be antisocial or passive dependent.”
Dr. Silversmith “also indicated that [Pooler had] a
mental disorder non-psychotic, unspecified.” Dr. Silversmith
allowed, though, that “incarceration in and of itself
contributes to mental or emotional issues, so it's an
unspecified mental disorder.” Dr. Silversmith did not make
a definitive diagnosis, but he believed Pooler was certainly
suffering anxiety and “a certain degree of depression,” which
“could certainly have suggested an adjustment disorder,
adjacent with incarceration.” Dr. Silversmith's report noted
that Pooler did not “appear to be suffering from any overt
mental illness or mental retardation.”
At the conclusion of the competency hearing, the state trial
court found that Pooler was competent to stand trial.
D. Guilt Phase
The guilt phase of Pooler's trial lasted from January 9 to 17,
1996. The State called victim Alvonza Colson, who described
Pooler's shooting him, murdering his sister, and the burglary.
Colson identified Pooler as the perpetrator. The State also
called witnesses who testified, among other things, that: (1) a
week before the murder, Pooler told one of Brown's neighbors
that he would kill Brown because he loved her and, if he could
not have her, no one else would; (2) bystanders, who knew

Pooler, saw him shoot Brown while she begged for her life
and heard Pooler yell at Brown while he was doing so, “Bitch,
didn't I tell you I [would] kill you?”; (3) Pooler shot Brown
and she fell, at which point he turned her over, asked if she
“want[ed] some more,” and shot her in the head; (4) after
Pooler shot Brown, he kicked her body before getting in his
car and driving away; and (5) none of Brown's five gunshot
wounds were immediately fatal.
The jury convicted Pooler of the first-degree murder of
Brown, the attempted first-degree murder of Colson, and the
burglary of Brown and Colson's home.
E. Penalty Phase: Defense's Mental Health Testimony in
Mitigation
The penalty phase ran from February 2 to 8, 1996. The State
put forth no evidence, resting upon the guilt-phase evidence.
The defense called, as mitigation witnesses, mental health
experts and lay witnesses. The defense wanted to show that
Pooler had low intelligence and mental health disturbances
and problems, but yet had worked hard and served in the
military, including in Vietnam, and should have his life
spared.
Neuropsychologist Dr. Levine first testified that he was
appointed by the state trial court to evaluate Pooler's
competency. Dr. Levine described the evaluation, which
included assessments of Pooler's intelligence and cognitive
functioning. Pooler's cognitive functioning was “in the low
average to mildly impaired range.” Pooler's performance IQ
results ranged from about 75 to 85. Low average is 80 to 89,
and borderline retarded is 70 to 79.
On the WAIS–R intelligence test, Pooler's scores were 81 for
verbal IQ, a 79 for performance IQ, and a full-scale IQ of 80.
Pooler's scores put him “right on the cusp of the low average
to the borderline range.” Pooler scored in the borderline
range on four of nine WAIS–R subtests. Pooler's reading
ability, which was at the third-grade level, “was dramatically
impaired.”
*1259 Pooler shared with Dr. Levine portions of his
educational, military, and job history. Pooler told him that
Pooler graduated from high school, served in the military
and achieved the rank of sergeant, and held down a job for
an extended period of time. To Dr. Levine, this suggested
Pooler's intelligence should be in the average range, not
low average to borderline, but Dr. Levine found that all of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

Pooler's test results were internally consistent, and there was
no evidence of malingering.
Dr. Levine also talked about Pooler's mental health. Dr.
Levine learned from the jail's medical records that Pooler,
after his arrest, “had a significant emotional reaction to
whatever it was that was going on.” Pooler “had pretty much
resolved his mental health issues” by the time Dr. Levine
examined him. Dr. Levine noted, though, that Pooler appeared
to be “experiencing some depressive symptoms.” Dr. Levine's
“clinical impression” was that Pooler had some symptoms of
depression but “did not meet the criteria for a [depression]
diagnosis.”
In mitigation, the defense next called psychologist Steve
Alexander. Dr. Alexander, also appointed by the court,
had evaluated Pooler's competency, too.5 Dr. Alexander
concluded that Pooler was not competent to stand trial.
5

The record does not reveal when Dr. Alexander was
appointed or why he did not testify at the pretrial
competency hearing. Salnick did not call Dr. Silversmith,
who testified at the competency hearing that Pooler was
competent.

Dr. Alexander admitted that Pooler's ability to appreciate the
criminality of his conduct, or to conform his conduct to the
law's requirements, was not impaired. Dr. Alexander saw no
signs of “any long-term mental illness, or personality disorder
or disturbance that would have been existing at the time of
the shooting.”
However, Dr. Alexander believed Pooler was not competent
because he did not fully understand the current legal
proceedings. Other inmates were telling Pooler incorrect
information and Pooler “was grossly misinformed for what
appropriate court procedure was and what role he would
take in trial.” Thus, Pooler “would totally misunderstand
the proceedings as they were unfolding, and due to
misunderstandings and misperceptions maybe even be
disruptive.”
Although Dr. Alexander found it “clear in talking to [Pooler
that] he's a man of relatively limited intelligence,” he did
not need to administer an IQ test because Pooler was “not
so mentally deficient or retarded that that was the basis of
an incompetency.” Dr. Alexander estimated Pooler's IQ was
between 75 and 85, which was “in the lower low average
range ... or the upper end of a borderline.”

According to Dr. Alexander, Pooler was gullible and
displayed “some gross misperceptions about the legal system
and the way it worked.” Pooler's incompetence to stand trial
was not caused by a mental illness, defect, or disease, “but
instead was just a real lack of understanding [and] basically
distrust, given his situation, ... being fearful, not knowing
who to believe, and then erroneously, given his ... limitations,
erroneously placing value and importance on the opinions of
other inmates rather than on his attorney.”
In mitigation, the defense also called psychiatrist Jude
Desormeau, who testified about Pooler's depression, his being
on suicide watch in the jail, and being in the jail's mental
health unit receiving treatment. Dr. Desormeau examined
Pooler in February 1995 after he was referred by the
psychiatric nurse at the jail. Pooler was depressed and anxious
and had spoken of harming himself, so he was placed on
suicide watch.
*1260 Dr. Desormeau concluded Pooler was suffering
from “an adjustment disorder with mixed features,” making
Pooler “very depressed and very anxious and tearful.” Dr.
Desormeau prescribed a tranquilizer. After seven to ten days,
Pooler stabilized and was sent to a different doctor. Pooler
was then taken off the tranquilizer.
Psychiatrist Dr. Michael Armstrong, a staff psychiatrist at the
jail, also testified about Pooler's depression and adjustment
disorder. Dr. Armstrong saw Pooler before he was discharged
from the jail's mental health unit into the general population.
Pooler was in Dr. Armstrong's mental health transitional unit
for about two weeks. At first, Pooler reported both that he was
depressed and that he heard a voice calling his name, which
began when he came to the jail. By the end of his stay, Pooler
“was functioning very well and was ready for the general
population.”
F. Penalty Phase: Defense's Lay Witnesses
In mitigation, the defense also called Arthur Rock, a deputy
sheriff at the jail, who testified Pooler was “a well-behaved
inmate.” Rock reviewed Pooler's year-long jail file and
reported that Pooler had received only one disciplinary writeup that year, with no indication of violence in the incident.
As for Pooler's long-term employment, co-worker Alice
Bradford testified that she worked with Pooler at the moving
company for the seven years Pooler was employed there.
Pooler was reliable and punctual.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

Bradford came to know Pooler outside of work because
Pooler would help Bradford, who was a single parent, with
yard work. Bradford trusted Pooler in her home, and he never
did anything inappropriate there. Bradford trusted Pooler
around her son. Pooler was very nice, polite, and respectful
whenever Bradford saw him. Bradford believed Pooler to
have fairly good intelligence, but the work he performed for
her was uncomplicated, menial labor.
In mitigation, the defense also called Pooler's family members
to testify, specifically his brother, sister, and father. Pooler's
brother Henry testified that when he and Pooler grew up, their
family was close. The Poolers were a religious family. The
family was very supportive of Henry and Pooler. Henry was
still close to Pooler and spoke to him on the phone often.
Henry said that he could not ask for a better brother, because
Pooler was so “free-hearted.”
Pooler had four daughters. When they were growing up,
Pooler provided for them, took care of them, made sure they
went to school, and took them to church.
Henry and Pooler went to school in the 1960s, in segregated
schools. Pooler was a pretty good student in high school, as
he had to maintain a C average to play on the basketball team.
According to brother Henry, Pooler served more than six
years in the United States Marine Corps, including service
in Vietnam. Pooler initially served six months in the active
reserve, then re-enlisted for six years. After Pooler returned
from Vietnam, he “looked like he was off a little bit.” Pooler
had a bad temper when he returned.
Pooler's sister Carolyn testified that she and Pooler got along
well when they were growing up, though it had been awhile
since she had seen him. Pooler “was more like a father figure”
to Carolyn, watching over her and taking care of her.
Pooler's family were members of the Baptist Church, and they
didn't have trouble getting along with one another “like most
families will.” They were “there for one another, help[ed] one
another, whatever the situation may be.”
*1261 According to sister Carolyn, Pooler was a “very good
father” and a “good provider” for his daughters. Pooler was
baptized, prayed a lot, and was “a good person.” Carolyn
exhorted the jury to “talk to God before you come up with
a decision to pass onto Leroy,” because she felt Pooler was
worthy of “another chance” at God's forgiveness.

Pooler's father Henry Pooler, Sr., also testified. Pooler's father
“raised [Pooler] as far as [he] could,” and Pooler had never
given his father any trouble. Pooler's father told the jury that
he loved Pooler and did the best he could for Pooler and his
other children.
G. Penalty Phase Closing Argument
In his closing argument, defense counsel Salnick argued,
among other things, that he put on the mental health experts
to show Pooler had borderline intelligence and some mental
health problems. To show reliability of the mental health
testimony, Salnick emphasized that Dr. Levine and Dr.
Alexander both were court-appointed. Salnick discussed the
doctors' findings and argued that the jury could “take into
account a mental disturbance, infirmity, problem, intellectual
abilities.” Salnick argued that when the mental health
evidence is combined, it suggests a life imprisonment
sentence is appropriate:
Now, if you start adding those things up and you start with
what happened with the suicide watch and the depression,
and then you have a doctor that didn't find him incompetent
but found him borderline in terms of his intelligence, and
you have a doctor who found him incompetent, that tells
you that there's some problem here. And I would suggest
that from that evidence this problem translates that Leroy
Pooler needs the rest of his life in prison, but not to take his
life, not here, not here, not in this circumstance.
Salnick pointed out that Pooler was “a 47 year old man
with a first grade word level, a third grade reading level.”
Pooler grew up in segregated schools and did not “get the
full benefit of a high school education.” Pooler's family
members confirmed that, after he returned from Vietnam, “he
wasn't the same, he got angry, he was different.” That change
was significant “because that chain of events ultimately,
unfortunately and sadly, gets us right here.”
Salnick then recounted the testimony about Pooler's good
qualities and argued that, although Brown's murder was
“totally inappropriate, totally wrong, totally offensive,” it
nevertheless represented “one morning out of 47 years.”
Salnick said that Pooler was “a simple man,” “not
an intellect,” but “a simple man from a hard working
background, who for some reason did something way out of
his character when this event occurred. This is not the type of
a man to be put to death.”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

H. Jury Recommendation, Sentencing, and Direct Appeal
The jury recommended death by a nine-to-three vote. The
state trial court sentenced Pooler to death.
The court found three statutory aggravating factors: (1) a prior
violent felony conviction (the attempted first-degree murder
of Colson); (2) the murder occurred during the commission
of a burglary; and (3) the murder was especially heinous,
atrocious, or cruel.
The state trial court found the statutory mitigating factor
that Pooler murdered Brown while under the influence of an
extreme mental or emotional disturbance, but gave that factor

The United States Supreme Court denied Pooler's certiorari
petition. Pooler v. Florida, 525 U.S. 848, 119 S.Ct. 119, 142
L.Ed.2d 96 (1998).
I. Rule 3.850 Motion and Supporting Materials
On September 17, 1999, Pooler filed in the Florida trial court
(the “3.850 court”) a Florida Rule of Criminal Procedure
3.850 motion to vacate his convictions and death sentence.
Pooler's 3.850 motion claimed, inter alia, that his trial
counsel Salnick provided ineffective assistance by failing to
adequately investigate and present mitigation evidence in the
penalty phase.

little weight.6

Attached to the motion were (1) Pooler's school and military
records, and (2) declarations from Pooler's nephews Brian and

6

Darren Warren. Pooler's school records end at 11th grade.8
The school records indicate that Pooler scored 75 on an IQ
test in second grade.

The state trial court expressly found that the defense
had not established certain other statutory mitigating
circumstances: (1) Pooler's capacity to appreciate the
criminality of his conduct or conform to the requirements
of the law was not substantially impaired; (2) Pooler did
not act under extreme duress or under the substantial
domination of another person; and (3) Pooler's age at the
time of the murder (47 years old) was not mitigating.

*1262 The state trial court also found the following nonstatutory mitigating factors: (1) Pooler served honorably in
the military; (2) Pooler had a good employment record; (3)
Pooler was a good parent; (4) Pooler had done specific good
deeds and had certain good characteristics; and (5) if not
given the death penalty, Pooler could receive only life without
parole or consecutive life sentences. The state trial court gave
Pooler's honorable military service considerable weight and
attached either some or little weight to the other non-statutory
mitigators.7
7

The state trial court expressly rejected as non-statutory
mitigating factors the following: (1) Pooler had a good
jail record and could adapt well to prison life; (2)
Pooler could be rehabilitated; (3) Pooler had low normal
intelligence; (4) Pooler had mental health problems; and
(5) the murder resulted from a heated domestic dispute
and Pooler was unlikely to endanger others in the future.

The state trial court concluded that not only did the statutory
aggravating factors far outweigh the mitigators, but also that
each of the three aggravating factors standing alone would
have outweighed all the mitigating factors.
On direct appeal, the Florida Supreme Court affirmed Pooler's
convictions and death sentence. Pooler I, 704 So.2d 1375.

8

The military records indicate that Pooler completed two
years of high school and left without graduating.

Pooler's military records show that he: (1) served as a guard
and a rifleman in the Vietnam War; (2) was disciplined
frequently, including for six instances during a one-year
period of being absent without leave; (3) was punished for
using disrespectful language to a superior officer and for
refusing to obey orders; and (4) was found guilty in a special
court-martial for unauthorized absences and sentenced to a
reduction in pay grade and two months' confinement with
hard labor.9 Pooler received three basic service medals: the
National Defense Service Medal, the Vietnamese Service
Medal, and the Vietnamese Campaign Medal.
9

Pooler also received a bad conduct discharge, which the
U.S. Navy Court of Military Review reversed on appeal.
Pooler ultimately was released from active duty “under
honorable conditions.”

In their declarations, Pooler's nephews Brian and Darren
Warren discussed Pooler's emotional problems after returning
from Vietnam, his frequent alcohol abuse, and that he was
a good father to his four daughters. Pooler seemed to have
flashbacks to his war experiences; became paranoid, *1263
moody, and short-tempered; and complained that the army
“took [his] mind.” Pooler “began to use alcohol to the
extreme,” and by early 1995, Pooler's “recreation consisted
of hanging out in the parking lot near [victim Brown's]
apartment and drinking large amounts of ... beer and hard

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

liquor.” But Pooler loved his daughters, tried to be a good
father to them, and was involved in their lives.
J. 3.850 Evidentiary Hearing
At the 3.850 evidentiary hearing, Pooler called four
witnesses: trial counsel Salnick, his investigator Jenne,
Detective Francisco Alonso, and psychologist Michael
Brannon.10
10

The 3.850 court conducted proceedings on Pooler's
competency. Pooler's 3.850 counsel stated that he (1)
“had difficulties in obtaining information from Mr.
Pooler, such as employment history, military history,
and educational background,” and (2) the information on
such subjects that counsel obtained from other sources
was “inconsistent at best [with] material gathered from
Pooler himself.”
The 3.850 court appointed mental health experts
Dr. John Spencer and Dr. Michael Brannon to
examine Pooler's competency. Both Dr. Spencer and
Dr. Brannon found Pooler competent, and after a
competency hearing, the 3.850 court found Pooler
was competent. Dr. Spencer died shortly before the
evidentiary hearing.

Salnick testified about his pretrial mitigation investigation.
Salnick “had no problem communicating with Mr. Pooler,”
whom he characterized as “articulate.” Salnick stated that
“Pooler may not have been a [Rhodes] scholar but he was
extremely street smart, savvy, and understood exactly what
was going on.” Pooler had “specific recollection of things just
prior to the homicide.”
Salnick initially had some concerns about whether Pooler was
competent, and said, “in a case involving the death penalty
you want to look at everything to make sure your client is
okay mentally.” Nevertheless, Salnick explained:
I was convinced that Mr. Pooler knew what was going on,
and that Mr. Pooler was capable of relaying facts to me, Mr.
Pooler[ ] was capable of sharing with me information. He
had no trouble giving us witnesses['] names, even on the
eve of trial he came up with something, and you go through
that information and you, as an attorney, you have to sort
out what you are going to use and what you are not going
to use.
Salnick noted that mental health issues are common in
penalty phase trials. A penalty phase investigation generally
includes a mental health evaluation, although it depends on

the case. Salnick explained that “every attorney [investigates
a client's psychological background in] different ways,” and
that “[s]ometimes you use competency experts, if you need[ ]
them[,] for Phase II; sometimes you hire new experts.”
Salnick testified that there were “a bunch” of strategic reasons
for not hiring his own mental health experts to testify at
Pooler's penalty phase, and instead choosing to call the courtappointed competency experts and the jail personnel. For
example, the court-appointed experts had credibility because
they supported the defense's position in the penalty phase and
were not being paid by the defense team.
Salnick did not hire new doctors to do a penalty phase
psychological workup on Pooler because of what he already
had gathered. Salnick said, “We had the competency doctors,
we had Dr. Desormeau, we had Dr. Armstrong, we had family
members, we had a jail employee, we had a co-worker from
his employment and we made a strategic decision as to how
we were going to proceed with Phase II.”
Salnick testified that he and Jenne tried to get Pooler's military
records, but were *1264 unsuccessful. And in any event,
had they obtained and presented the military records, it
“would have backfired” because Salnick had seen a portion of
Pooler's military records in the 3.850 case and “it talks about
AWOL, and hitting people, and talks about [Pooler having]
not such a stel [l]ar career in the military.” Those things were
inconsistent with what the defense was trying to show in
the penalty phase, which was that Pooler served his country
honorably in Vietnam.
Salnick had argued to the jury that Pooler had a good military
record “[b]ased exactly on what [Pooler] told [Salnick].”
Salnick explained:
If my client tells me that information and my investigator,
who I believe went to Louisiana for a period of time,
and that's corroborated by a relative, it seems to me that
is consistent with our strategy to show that this incident
was the product of a man who for 15 years had not been
arrested, lived a good life and served our country. That was
certainly what we decided, and based on it at the time it
was certainly reasonable.
(Emphasis added).
Salnick learned later that what Pooler told Salnick before
trial, and what his relatives confirmed—Pooler graduated
from high school—was not true. But Salnick testified that
because his client told him something and his client's relatives

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

backed it up, it was “extremely reasonable” to present it to the
jury. Salnick “had no reason to disbelieve” his client. Salnick
reiterated that although Jenne tried to get the military records,
“with Mr. Pooler telling us that he had been in the service
and was honorably discharged, with his brother corroborating
that, we didn't need any more at that point.”
Salnick was aware of the notion that in a penalty phase trial
it can be helpful to present evidence of bad circumstances
from the defendant's life so that “perhaps the jury may opt
to be forgiving and spare his or her life.” Salnick believed
that in “some cases that's a very good strategy depending
upon the information that you have.” And in some cases, there
are no significant positive aspects of the defendant's life to
present. But in Pooler's case, Salnick had positive evidence,
and decided “as a matter of strategy” to present a positive
story of Pooler's life:
We had an individual ... [who] served his country in
Vietnam, re-upped, raised his daughter[s], always took care
of them .... His brother Henry said how he was a good
parent, worked, he had a job, graduated from high school,
and how he was honorably discharged, how he did live his
good life .... Those are the types of things that we thought
would be better, so that's—granted, when he was young he
had a criminal record but he had 15 years of living, you
know, a hard-working productive life; he had one job, I
think, for eight years. This is a guy who on that particular
day was not the person that he had been for 15 years, and
we felt that as a matter of strategy, and a matter of tactic,
that's what we wanted to present to the jury. You convicted
him. Now let's look at this: He served his country, worked,
and took care of his 79–year–old father.
Although during his pretrial investigation Salnick had
discovered evidence that Pooler had a bad temper, a violent
background, and had been known to argue with people and
carry a gun, Salnick “certainly didn't want that to come in”
during the penalty phase, for Salnick's plan was “to show the
human being that [Pooler] was and could still be if [his] life
was spared.”
Salnick's investigator Marvin Jenne also described the pretrial
investigation. Jenne and Pooler “got along pretty good all the
time” and “had a good personal working relationship.” Jenne
tried to corroborate *1265 all the background information
he received from Pooler by talking with other persons.

Brown's murder, at 6:30 a.m., he took a report from Pooler
that $301 had been stolen from his wallet. Pooler said he was
sitting in his car with a girlfriend's friend, fell asleep, and
awoke to find his wallet missing.
Although Detective Alonso's report stated that Pooler had
fallen asleep from intoxication before the alleged theft at 3:00
a.m., when Pooler arrived to make the report, he did not
appear drunk. Pooler smelled like he [had been] drinking,
“smelled like alcohol but he was coherent, he wasn't slurring
his speech, he was attentive, and [he] gave [Detective Alonso]
the exact ... amount of $301.” Detective Alonso saw Pooler
drive away from the police station, and would not have let
him drive if he had thought Pooler was still intoxicated.
Psychologist Dr. Michael Brannon, Pooler's final 3.850
witness, evaluated Pooler and administered an intelligence
test. Pooler received an IQ score of 75, which put him in
the borderline range. Dr. Brannon found that Pooler was
competent to proceed. Dr. Brannon believed that, in his selfreporting of his background, Pooler was confabulating—that
is, not outright lying but filling in the gaps in one's memory
with inaccurate information.
Dr. Brannon believed Pooler “had a severe alcohol problem,”
a “high probability of severe substance dependency,” and
alcohol dependency disorders. Dr. Brannon summarized his
areas of concern: (1) Pooler's IQ, which fell in the borderline
range based on current and past testing; (2) Pooler's neuropsychological deficits, as shown in Dr. Levine's report;
(3) Pooler's alcohol dependence and abuse; and (4) the
possibility, which more investigation would be needed
to confirm, that Pooler had post-traumatic stress disorder
(“PTSD”) from Vietnam. Pooler “certainly shows extreme
traumatic stress-like reactions,” but Dr. Brannon did not know
whether they rose to the level of PTSD.
K. 3.850 Court's Denial of Pooler's 3.850 Motion
The 3.850 court denied Pooler's 3.850 motion. The 3.850
court found that Salnick conducted a reasonable investigation
and that Salnick's strategy at the penalty phase was “to
present the defendant in a positive light, that he had been a
productive member of society.” This strategy was “in direct
contrast” with Pooler's 3.850 contention that the defense
should have offered less-flattering-to-Pooler evidence at the
penalty phase, but “[m]ere disagreement with trial strategy
does not amount to a basis for postconviction relief.”

Pooler's 3.850 counsel also called West Palm Beach Police
Detective Francisco Alonso, who testified that on the day of
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

The 3.850 court concluded, “It is clear from the
evidence presented that trial counsel conducted a reasonable
investigation, and when written documentation was not
available, [an] alternate means of corroboration was found
(i.e., family members).” In light of Salnick's investigation and
chosen penalty-phase strategy, and “given the corroboration
obtained from family members, the failure to obtain [Pooler's]
military and employment records was not prejudicial.”
As to the mental health experts, the 3.850 court observed
that Salnick “opted to present the testimony” of the experts,
Drs. Levine, Desormeau, Armstrong, and Alexander, who
evaluated Pooler “for competency purposes and mental health
issues for the court and in the jail.” Moreover, “information
regarding [Pooler's] school, military and employment history
was given to the mental health experts,” and “jail and medical
records as well as the fact *1266 that there was no prior
report of psychiatric treatment were given to the experts.” The
3.850 court found that Pooler “failed to meet his burden under
Strickland.”
As to Salnick's not presenting intoxication evidence, the
3.850 court noted that: (1) Salnick successfully used evidence
of Pooler's intoxication a week before the murder, when
Pooler threatened Brown in his statement to witness Carolyn
Glass, to preclude the State from obtaining an instruction on
the cold, calculated, and premeditated (“CCP”) aggravating
circumstance; (2) Salnick reviewed and discussed with Pooler
the contents of Detective Alonso's police report regarding the
theft of money from Pooler a few hours before the murder,
which stated that Pooler fell asleep from intoxication at 3:00
a.m.; (3) the murder occurred between 8:00 and 9:00 a.m., five
to six hours after Pooler fell asleep and about two hours after
Pooler reported the theft to Detective Alonso; (4) the police
report did not indicate Pooler was drunk when he filed the
report; (5) Pooler could recall specific details about the day
of the murder; and (6) Salnick was aware of the possibility of
presenting evidence of intoxication but decided not to do so.
The 3.850 court also pointed out Detective Alonso's testimony
that Pooler did not appear impaired while filing the report and
Detective Alonso knowingly permitted Pooler to drive away
from the police station.
In sum, the 3.850 court found that Pooler had failed “to
prove that trial counsel did not properly investigate mitigating
factors to present to the court and the jury” at the penalty
phase. The 3.850 court stated:
After applying the “highly deferential” scrutiny to
counsel's strategic decisions as required by Strickland, the

court finds that the defendant has failed to prove that his
attorney's representation fell below an objective standard of
reasonableness and that there was a reasonable probability
that the results of the proceeding would have been different
but for counsel's strategic decisions.
L. 3.850 Appeal
Pooler appealed the denial of his 3.850 motion to the Florida
Supreme Court, which affirmed. Pooler v. State, 980 So.2d
460 (Fla.2008) (“Pooler II”).
The Florida Supreme Court divided Pooler's penalty phase
ineffective counsel claim into three sub-parts: (1) failure to
investigate and present evidence of Pooler's alcohol abuse or
dependency; (2) failure to investigate and present Pooler's
school, military, and employment records; and (3) failure to
retain mental health experts and provide them with adequate
background information. Id. at 464.
As to alcohol abuse or dependency, the Florida Supreme
Court concluded that Pooler had not shown either deficient
performance or prejudice:
First, Salnick's performance was not deficient.... Salnick
conducted a reasonable investigation into Pooler's
background. Neither Pooler nor his family indicated to
Salnick that he had a substance abuse problem or that he
had been drinking at the time of the shooting. However,
Salnick discovered that Pooler had been drinking two
days before the murder when he threatened to kill Kim
Brown. He used this information during the penalty phase
to prevent the State from obtaining an instruction on CCP.
Further, Salnick testified at the evidentiary hearing that he
chose not to introduce Pooler's police report during the
penalty phase because it would open the door for the State
to cross-examine Pooler regarding the fact that he had been
with a prostitute when he passed out drunk and that she
stole his money. This was a reasonable tactical decision
*1267 made after a reasonable investigation; therefore,
Salnick's performance was not deficient. Moreover, ... none
of the evidence introduced by Pooler at the evidentiary
hearing shows that he was intoxicated at the time of the
murder. Therefore, any alleged failure on Salnick's part to
investigate and present it at trial was not prejudicial.
Id. at 466–67 (citation omitted).
As to the school, military, and employment records, the
Florida Supreme Court concluded that Salnick's pre-trial
investigation was reasonable given that Pooler's family

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

members corroborated what Pooler self-reported on these
subjects:
Salnick conducted a reasonable investigation. His failure
to obtain Pooler's records does not rise to the level
of ineffective assistance. Pooler consistently represented
to Salnick that he was an average student, graduated
from high school, and was honorably discharged from
the Marine Corps. To test the validity of Pooler's
representations, Salnick's investigator, Marvin Jenne,
traveled to Louisiana and interviewed members of Pooler's
family. All of the family members Jenne located and
interviewed corroborated Pooler's positive representations.
Further, Jenne made an attempt, albeit unsuccessful, to
obtain Pooler's school records. Based on Pooler's positive
representations of himself which were substantiated by
his family members, Salnick had no reason to believe
Pooler's records would contain anything negative or
mitigating. Therefore, he formed a reasonable trial strategy
of presenting Pooler in a positive light.
Id. at 467 (citation omitted). Thus, Pooler did not satisfy the
deficient performance prong of the ineffective assistance test.
Id.
The Florida Supreme Court also found that Pooler failed to
show prejudice given the mitigating evidence Salnick did
introduce, Salnick's trial strategy, and that the additional
evidence in these records was a double-edged sword and
would have undermined Pooler's other mitigating evidence:
Moreover, no prejudice resulted from counsel's choice of
strategy. At trial, Salnick showed that Pooler had been a
productive member of society and crime-free for fifteen
years prior to the murder. He presented evidence that
Pooler had served honorably in the military in Vietnam,
reenlisted, raised a daughter, took care of his relatives,
was a good parent, worked at the same job for eight
years, and was well liked by his coworkers. Of all the
mitigation presented, the trial court gave considerable
weight only to Pooler's honorable military service.
Had Salnick introduced Pooler's military, school, or
employment records, he would have undermined Pooler's
only significant mitigation. See Reed v. State, 875 So.2d
415, 437 (Fla.2004) (“An ineffective assistance claim does
not arise from the failure to present mitigation evidence
where that evidence presents a double-edged sword.”).
Furthermore, Pooler's records would not have opened up
mitigation leads sufficient to overcome the aggravation
found by the trial court. Accordingly, counsel's failure to

obtain these records does not undermine confidence in
Pooler's death sentence.
Id. at 467–68.
The Florida Supreme Court affirmed the 3.850 court's denial
of Pooler's claim about the mental health experts. Id. at
469. The Florida Supreme Court concluded that Salnick's
performance was reasonable:
Salnick reasonably relied on Pooler's corroborated
representations regarding his scholastic and military
background.
*1268
Salnick communicated this
information to the experts, and Pooler also gave the
experts the same information during their evaluations
of him. Furthermore, Salnick testified at the evidentiary
hearing that he retained these experts because, given their
neutrality, they would be more credible and difficult to
impeach. This was a reasonable strategic decision.
Id. (citation omitted). The Florida Supreme Court also
concluded that, even assuming Salnick's performance were
deficient, Pooler did not show prejudice:
Even if we assume counsel's decision to forego further
testing constituted deficient performance, Pooler failed to
establish that any prejudice resulted from it. He presented
no evidence that the defense experts were incompetent or
that they failed to assist in the evaluation, preparation,
and presentation of the defense. Nor did Pooler identify
anything of substance that a more in-depth psychoanalysis
would have added. [3.850 expert] Dr. Brannon's finding
that Pooler had neurological damage from head injuries
was already indicated in Dr. Levine's evaluation. Also,
Dr. Brannon's determination that Pooler had a borderline
retarded IQ of 75 does not constitute a clear indication
of actual mental retardation because it is within the
range estimated by Dr. Alexander and is not substantially
inconsistent with the trial court's finding that Pooler had an
IQ of 80. Furthermore, because Pooler did not call any of
his trial experts to testify at his postconviction hearing, he
failed to demonstrate that they would have changed their
opinions had they conducted more in-depth psychological
evaluations or been provided with his records. Under
these circumstances, a new sentencing proceeding is not
mandated.
Id. (citations omitted).
The United States Supreme Court denied Pooler's certiorari
petition. Pooler v. Florida, 555 U.S. 911, 129 S.Ct. 255, 172
L.Ed.2d 192 (2008).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

M. Federal Habeas Proceedings
In May 2008, Pooler filed his 28 U.S.C. § 2254 federal habeas
petition, which was denied. The district court concluded,
inter alia, that the Florida Supreme Court's decision affirming
the 3.850 court's denial of Pooler's penalty-phase ineffective
counsel claim was not unreasonable, but granted a certificate
of appealability (“COA”) on that claim. Pooler appealed.

II. STANDARD OF REVIEW
Section 2254, as amended by the Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”), Pub.L. No. 104–
132, 110 Stat. 1214, provides that federal courts may not
grant a writ of habeas corpus to a state court prisoner on
any claim adjudicated on the merits in state court unless
the state court's decision “was contrary to, or involved an
unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States,” or
“was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.”
28 U.S.C. § 2254(d); see Trepal v. Sec'y, Fla. Dep't of Corr.,
684 F.3d 1088, 1107 (11th Cir.2012). Thus, AEDPA “imposes
a highly deferential standard for evaluating state-court rulings
and demands that state-court decisions be given the benefit of
the doubt.” Trepal, 684 F.3d at 1107 (quoting Hardy v. Cross,
565 U.S. ––––, 132 S.Ct. 490, 491, 181 L.Ed.2d 468 (2011)).
*1269 “We review de novo the district court's decision about
whether the state court acted contrary to clearly established
federal law, unreasonably applied federal law, or made an
unreasonable determination of fact.” Johnson v. Upton, 615
F.3d 1318, 1330 (11th Cir.2010).

III. DISCUSSION
A. Strickland Test for Ineffective Counsel Claims
Pooler's ineffective assistance of counsel claim is governed
by the Supreme Court's two-pronged test announced in
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984). See Johnson, 615 F.3d at 1330. Under
the Strickland test, for a convicted defendant to show that he
received constitutionally ineffective assistance of counsel, he
must show that (1) his attorney's performance was deficient,
and (2) the deficient performance prejudiced the defense.
Strickland, 466 U.S. at 687, 104 S.Ct. at 2064. A court need
not “address both components of the inquiry if the defendant

makes an insufficient showing on one.” Id. at 697, 104 S.Ct.
at 2069.
The performance standard is “objectively reasonable attorney
conduct under prevailing professional norms.” Johnson, 615
F.3d at 1330; see Strickland, 466 U.S. at 688, 104 S.Ct.
at 2065 (“The proper measure of attorney performance
remains simply reasonableness under prevailing professional
norms.”). The question is “whether, in light of all the
circumstances, the identified acts or omissions were outside
the wide range of professionally competent assistance.”
Strickland, 466 U.S. at 690, 104 S.Ct. at 2066. In answering
this question, we employ a highly deferential review of
counsel's conduct, for “we must indulge a strong presumption
that counsel's performance was reasonable and that counsel
made all significant decisions in the exercise of reasonable
professional judgment.” Rhode v. Hall, 582 F.3d 1273, 1280
(11th Cir.2009) (quoting Newland v. Hall, 527 F.3d 1162,
1184 (11th Cir.2008)). In short, Pooler “must establish that
no competent counsel would have taken the action that his
counsel did take.” Id. (quoting Newland, 527 F.3d at 1184).
Attorneys have a duty to conduct reasonable pretrial
investigations. Strickland, 466 U.S. at 690–91, 104 S.Ct. at
2066. The Strickland Court explained:
[S]trategic choices made after thorough investigation of
law and facts relevant to plausible options are virtually
unchallengeable; and strategic choices made after less
than complete investigation are reasonable precisely to the
extent that reasonable professional judgments support the
limitations on investigation. In other words, counsel has
a duty to make reasonable investigations or to make a
reasonable decision that makes particular investigations
unnecessary. In any ineffectiveness case, a particular
decision not to investigate must be directly assessed for
reasonableness in all the circumstances, applying a heavy
measure of deference to counsel's judgments.
Id.
Furthermore, “[t]he reasonableness of counsel's actions may
be determined or substantially influenced by the defendant's
own statements or actions,” for attorneys—usually, and “quite
properly”—base their actions “on information supplied by the
defendant.” Id. at 691, 104 S.Ct. at 2066. “In particular, what
investigation decisions are reasonable depends critically”
upon information the defendant furnishes to his counsel. Id.
The Supreme Court in Strickland noted that, “when the facts
that support a certain potential line of defense are generally
known to counsel because of what the defendant has said, the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

need for further *1270 investigation may be considerably
diminished or eliminated altogether.” Id. Therefore, “inquiry
into counsel's conversations with the defendant may be
critical to a proper assessment of counsel's investigation
decisions.” Id.
For prejudice, the standard is whether “there is a reasonable
probability that, but for counsel's unprofessional errors, the
result of the proceeding would have been different.” Rose v.
McNeil, 634 F.3d 1224, 1241 (11th Cir.), cert. denied, –––
U.S. ––––, 132 S.Ct. 190, 181 L.Ed.2d 98 (2011) (quoting
Strickland, 466 U.S. at 694, 104 S.Ct. at 2068). Because
Pooler alleges ineffective assistance in the penalty phase,
he must show that “there is a reasonable probability that,
absent the errors, the sentencer would have concluded that the
balance of aggravating and mitigating circumstances did not
warrant death.” Id. at 1241–42 (quotation marks and citation
omitted).
In assessing prejudice, “we consider the totality of the
available mitigation evidence—both that adduced at trial,
and the evidence adduced in the habeas proceeding—and
reweigh it against the evidence in aggravation.” Porter v.
McCollum, 558 U.S. 30, 130 S.Ct. 447, 453–54, 175 L.Ed.2d
398 (2009) (quotation marks and brackets omitted). To satisfy
the prejudice prong, the “likelihood of a different result
must be substantial, not just conceivable.” Harrington v.
Richter, ––– U.S. ––––, 131 S.Ct. 770, 792, 178 L.Ed.2d 624
(2011). “Counsel's errors must be so serious as to deprive the
defendant of a fair trial, a trial whose result is reliable.” Id. at
787–88 (quotation marks and citation omitted).
Because we must view Pooler's ineffective counsel claim
—which is governed by the deferential Strickland test—
through the lens of AEDPA deference, the resulting standard
of review is “doubly deferential.” Digsby v. McNeil, 627
F.3d 823, 831 (11th Cir.2010), cert. denied, ––– U.S. ––––,
131 S.Ct. 2936, 180 L.Ed.2d 230 (2011); see also Richter,
131 S.Ct. at 788 (“The standards created by Strickland and
§ 2254(d) are both ‘highly deferential,’ and when the two
apply in tandem, review is ‘doubly’ so.” (citations omitted)).
The ultimate question before us is not whether Pooler's
trial counsel Salnick's actions were reasonable, but whether
“there is any reasonable argument that [Salnick] satisfied
Strickland's deferential standard.” Richter, 131 S.Ct. at 778.
If any such reasonable argument exists, then Pooler cannot
prevail.
B. Performance: Investigation

Pooler argues that Salnick rendered ineffective assistance
during the penalty phase investigation by relying on Pooler's
own statements about his background without obtaining the
school, military, and employment records that would have
shown Pooler's positive statements about his background
and achievements were untrue. The Florida Supreme Court
rejected this contention and found Salnick's penalty-phase
preparation was reasonable under the circumstances. Pooler
II, 980 So.2d at 467. The Florida Supreme Court's decision is
not contrary to, or based on an unreasonable application of,
Supreme Court precedent. Nor is it based on an unreasonable
determination of the facts.
It was not unreasonable for the Florida Supreme Court to
conclude, based on the evidence presented at trial and in the
3.850 proceedings, that Salnick's investigation of mitigating
evidence, and his strategic decisions about what evidence to
present in the penalty phase, fell within “the wide range of
professionally competent assistance.” Strickland, 466 U.S.
at 690, 104 S.Ct. at 2066. The facts show that Salnick,
an experienced criminal defense attorney, retained *1271
Jenne, a veteran investigator, to help with the mitigation
search, and Salnick instructed Jenne to find “anything and
everything” he could about Pooler. The two men began
by speaking with Pooler himself, who furnished them with
information and with names of witnesses. According to
Salnick, Pooler had no trouble sharing information, and
Jenne thought he and Pooler had a “good personal working
relationship.”
Nevertheless, Salnick and Jenne did not simply take Pooler's
information at face value. They interviewed the witnesses
Pooler identified. Jenne testified he knew that criminal
defendants often don't tell their attorneys and investigators
the full truth, and he made an effort to corroborate all the
information Pooler gave him.
Importantly, Salnick and Jenne testified that they tried to
get these records Pooler claims they should have obtained.
Salnick testified they tried to get Pooler's military records,
but were unsuccessful. Jenne testified that he made telephone
calls and sent letters requesting Pooler's school records, but
he was told they were unavailable. Jenne tried to get Pooler's
employment records also, and did get the ones from local
employers, but could not obtain the records from Louisiana.
When Salnick and Jenne could not get the requested records,
they sought alternative corroboration from Pooler's close
relatives, who could reasonably be expected to know the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

details of Pooler's background. Only after they obtained that
corroboration did they present the evidence at trial.
It was not unreasonable, or contrary to Supreme Court
precedent, for the Florida Supreme Court to find that
counsel's performance as to these records was not deficient
under Strickland. Salnick and his investigator Jenne did
try to get the corroborating records, and when they could
not, they tried to—and did—obtain confirmation through
other means. See Housel v. Head, 238 F.3d 1289, 1295–
96 (11th Cir.2001) (counsel's failure to discover and present
evidence of defendant's poor, abusive upbringing was not
deficient performance because defendant told counsel there
was nothing traumatic in his upbringing, counsel followed
up by interviewing defendant's mother and other witnesses,
and mother confirmed that upbringing was normal); see also
Stewart v. Sec'y, Dep't of Corr., 476 F.3d 1193, 1210–12
(11th Cir.2007) (attorney's performance not unreasonable for
not finding, and providing to expert, evidence of defendant's
childhood abuse because (1) defendant failed to mention
abuse and in fact told attorney “just the opposite,” and (2)
attorney interviewed a number of family members, none of
whom mentioned abuse and all of whom said that defendant's
childhood was “harmonious and happy” (brackets omitted));
Williams v. Head, 185 F.3d 1223, 1237 (11th Cir.1999)
(attorney's performance not unreasonable for not finding
evidence of defendant's childhood abuse and mistreatment
where defendant himself gave no reason to suspect abuse or
mistreatment, and where attorney spoke to defendant's mother
and “got nothing from her about [the defendant] having been
abused or mistreated”). That the information Pooler gave his
counsel—and the confirmation supplied by Pooler's closest
relatives—turned out to be false is of no moment, for we do
not judge counsel's performance by hindsight. See Strickland,
466 U.S. at 689, 104 S.Ct. at 2065 (“A fair assessment of
attorney performance requires that every effort be made to
eliminate the distorting effects of hindsight, to reconstruct
the circumstances of counsel's challenged conduct, and to
evaluate the conduct from counsel's perspective at the time.”).
Significantly, Pooler presents no evidence, other than the fact
that his 3.850 counsel obtained the records *1272 and trial
counsel did not, tending to show that the efforts trial counsel
actually made to try to get the records were unreasonably
deficient. See Lambrix v. Singletary, 72 F.3d 1500, 1505–
06 (11th Cir.1996) (rejecting ineffective assistance claim
for failure to discover evidence of defendant's childhood
abuse and neglect where there was “no indication that
[defendant or his] relatives gave counsel reason to believe that
such evidence might exist” and there was no “documentary

evidence of [defendant's] abuse or neglect that would have
been readily available to counsel at the time” (emphasis
added)).
As noted above, the reasonableness of an attorney's
investigative decisions “depends critically” upon information
the defendant furnishes to his counsel. Strickland, 466 U.S. at
691, 104 S.Ct. at 2066. Moreover, “searching for old records
can promise less than looking for a needle in a haystack, when
a lawyer truly has reason to doubt there is any needle there.”
Rompilla v. Beard, 545 U.S. 374, 389, 125 S.Ct. 2456, 2467,
162 L.Ed.2d 360 (2005).
This is not a case where defense counsel took his client's
word on faith, with no attempt at confirmation.11 See, e.g.,
Porter v. McCollum, 558 U.S. 30, 130 S.Ct. 447, 452–53,
175 L.Ed.2d 398 (2009) (concluding penalty-phase counsel
performed deficiently when he had only one short meeting
with defendant about mitigating evidence; did not interview
any family members; did not obtain any school, medical, or
military records; presented almost no mitigating evidence;
and left jury hardly knowing anything about defendant).Nor
is it a case where counsel ignored evidence in his possession
that cast doubt upon his client's story or suggested the need
for further investigation. See Wiggins v. Smith, 539 U.S.
510, 527, 123 S.Ct. 2527, 2538, 156 L.Ed.2d 471 (2003)
(stating that “[i]n assessing the reasonableness of an attorney's
investigation, ... a court must consider not only the quantum
of evidence already known to counsel, but also whether
the known evidence would lead a reasonable attorney to
investigate further,” and finding that “[i]n light of what the ...
records [discovered by counsel] actually revealed, ... counsel
chose to abandon their investigation at an unreasonable
juncture”); Middleton v. Dugger, 849 F.2d 491, 493–94
(11th Cir.1988) (stating attorney's performance was deficient
because he “conducted almost no background investigation,
despite discussions with [the defendant] concerning the
existence of such mitigating evidence”).
11

Even if it were, that does not necessarily mean
that the Florida Supreme Court's decision finding
no deficient performance would be unreasonable.
See, e.g., Callahan v. Campbell, 427 F.3d 897,
934 (11th Cir.2005) (“Especially when it comes to
childhood abuse, information supplied by a petitioner is
extremely important in determining whether a lawyer's
performance is constitutionally adequate. This Court
has already stated in no uncertain terms: ‘An attorney
does not render ineffective assistance by failing to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717
discover and develop evidence of childhood abuse that
his client does not mention to him.’ ” (citations, quotation
marks, and brackets omitted)). Pooler, though, citing
Rompilla v. Beard, 545 U.S. 374, 377, 125 S.Ct. 2456,
2460, 162 L.Ed.2d 360 (2005), contends that “even
when the defendant and/or his family suggest that
no mitigating evidence is available, defense counsel
has an absolute duty to investigate.” This argument
misconstrues (and goes well beyond) the limited holding
of Rompilla, which provides that “even when a capital
defendant's family members and the defendant himself
have suggested that no mitigating evidence is available,
his lawyer is bound to make reasonable efforts to obtain
and review material that counsel knows the prosecution
will probably rely on as evidence of aggravation at the
sentencing phase of trial.” Id. (emphasis added).

Instead, this is “a case, like Strickland itself, in which defense
counsel's ‘decision not to seek more’ mitigating evidence
from the defendant's background ‘than was already *1273 in
hand’ fell ‘well within the range of professionally reasonable
judgments.’ ” Johnson v. Upton, 615 F.3d 1318, 1338 (11th
Cir.2010). It was neither unreasonable nor contrary to existing
Supreme Court holdings for the Florida Supreme Court to
conclude Salnick's performance was not deficient despite not
successfully obtaining Pooler's records to supplement the
information given to experts.
C. Performance: Mental Health Experts
Pooler also argues that Salnick's performance was
unreasonably deficient because he relied on the courtappointed experts who evaluated Pooler and did not retain
other mental health experts to evaluate Pooler. The record
reveals that this was a conscious, strategic decision by
Salnick, one that the Florida Supreme Court expressly found
to be reasonable. Pooler II, 980 So.2d at 469. Salnick testified
that he had “a bunch” of strategic reasons for choosing to
rely, in the penalty phase, on Dr. Levine and Dr. Alexander,
including that they would be more credible to the jury because
they were hired by the court and not the defense team.
Salnick also said that he did not hire a defense mental health
expert to do a mitigation-related evaluation because of what
he already had for the penalty phase. Salnick believed Dr.
Levine's and Dr. Alexander's conclusions dovetailed with his
chosen penalty-phase strategy of presenting evidence that
would humanize Pooler and portray him as a man who worked
hard, served his country, and was good to his family.
Under the particular circumstances here, it was neither
unreasonable nor contrary to Supreme Court precedent for

the Florida Supreme Court to conclude that a reasonable
attorney could have decided, as Salnick did, to rely on
the two experts here. Those circumstances include the
facts that: (1) trial counsel was already performing a
mitigation investigation into Pooler's background, including
an inquiry into his medical and psychological history;
and (2) well before trial, counsel read the reports from,
and heard the competency-hearing testimony of, multiple
experts who had evaluated Pooler's then-current mental
functioning. And most importantly, nothing in those expert
reports during competency proceedings, or in the additional
mitigation search Salnick and Jenne performed, suggested
a need for mental health experts to look further. See
Newland v. Hall, 527 F.3d 1162, 1210–14 (11th Cir.2008)
(finding no deficient performance in counsel's failure to hire
independent mental health expert after (1) court-appointed
competency experts evaluated defendant and reported he
was not suffering from psychological defect at time of
murder, and (2) counsel's observations of defendant showed
nothing indicating mental illness). Here, the two experts
administered neuropsychological and intelligence tests and
reported that Pooler had: (1) a low-average to borderline
intelligence level, with an overall IQ around 80; (2) poor
reading ability; (3) sub-optimal attention functioning; (4)
no prior psychiatric treatment except for the treatment for
depression after his arrest; (5) possible hypothyroidism and
psychomotor retardation; (6) suffered head trauma 30 years
before in a car accident, but with no cognitive or thinking
ability changes following it; (7) intact memory function,
with no delusions or confusion; (8) no evident symptoms of
mental illness; and (9) no signs of long-term mental illness
or disturbance existing at the time of Brown's murder.12
The two *1274 experts inquired about Pooler's history and
background, and Dr. Levine in particular spent about eight
hours examining Pooler.
12

Dr. Silversmith believed Pooler had a personality
disorder of an unspecified type, either antisocial or
passive dependent (although Dr. Alexander saw no sign
of a personality disorder), plus an unspecified, nonpsychotic mental disorder to which Pooler's pretrial
incarceration may have contributed. Thus, this also was
not unknown to Salnick.

Armed with Dr. Levine's and Dr. Alexander's reports of
Pooler's cognitive functioning and emotional state, and
added to what Salnick had learned of Pooler's background
(his family life, military service, and regular employment),
the Florida Supreme Court could reasonably conclude that
Salnick's strategic choice—to eschew further mental health

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

evaluations and emphasize Pooler's positive qualities—was
not constitutionally deficient performance. See Housel, 238
F.3d at 1296 (finding no deficient performance in counsel's
failure to investigate and present mental health evidence of
brain damage and hypoglycemic irritability episodes because
(1) counsel reviewed two psychological evaluations that did
not suggest a need to investigate further, (2) the defendant
never mentioned his hypoglycemia to counsel, (3) counsel
knew about defendant's prior head injury but saw nothing
unusual in defendant's behavior, and thus, (4) counsel “knew
enough about [the defendant's] mental health reasonably to
conclude that further investigation would not bear fruit”); see
also Newland, 527 F.3d at 1213–14.
D. Performance: Alcohol Use
Pooler also argued that Salnick performed unreasonably
because he failed to follow up on information about Pooler's
nephew Brian Warren and Pooler's alleged use of alcohol
on the day of the murder. As to this contention, the Florida
Supreme Court decision was likewise reasonable and not
contrary to prior holdings of the United States Supreme Court.
Regarding Brian Warren, it is undisputed that Salnick and
Jenne interviewed a number of Pooler's relatives, including
Pooler's father, brother, and sister, and that Jenne spent three
days in Louisiana speaking with persons who knew Pooler.13
As the Supreme Court has recognized, “there comes a point
at which evidence from more distant relatives can reasonably
be expected to be only cumulative, and the search for it
distractive from more important duties.” Bobby v. Van Hook,
558 U.S. 4, 130 S.Ct. 13, 19, 175 L.Ed.2d 255 (2009).
13

Jenne may have spoken with Pooler's nephew Darren
Warren, too. Jenne's invoice shows a phone call placed
to Darren Warren on April 25, 1995. However, Darren
Warren's declaration states that he was never contacted
by Pooler's defense team. Because Darren Warren did not
testify at the 3.850 hearing and Jenne was not asked about
the phone call, a factual dispute remains.

Regarding Pooler's alcohol consumption, the record shows
that Salnick investigated and was in fact aware of this
evidence. Salnick and Jenne interviewed a number of
witnesses, including Pooler's relatives and employers, about
Pooler's use of alcohol. Salnick obtained the police report
about the theft Pooler reported on the day of the murder
—which said Pooler “fell asleep due to intoxication”—and
spoke to Pooler about it.14 Pooler told Salnick that the woman
who allegedly robbed him was a prostitute, and Salnick did

not want to open the door to that fact coming before the jury,
stating that “[t]here is no way I would have done that. I just
didn't think it was appropriate.”
14

Salnick even discussed with Pooler the possibility of
plying a voluntary intoxication defense in the guilt phase,
but rejected that option because Pooler was adamant that
he did not want to use a defense that involved admitting
he committed the crimes.

More generally, presenting evidence of Pooler's alcohol use
may not have been mitigating in the jury's eyes, and may
well have opened the door not only to evidence of Pooler's
cavorting with a prostitute *1275 hours before he brutally
killed his ex-girlfriend, but also to the abundant evidence
of Pooler's bad temper and propensity to violence when he
was drunk. See Housel, 238 F.3d at 1298 (stating counsel
“could reasonably have decided to avoid using evidence
of [defendant]'s intoxication on the night of the offense
and his history of substance abuse” because “[e]vidence
of drug and alcohol abuse is ‘a two-edged sword,’ and a
lawyer may reasonably decide that it could hurt as much
as help the defense” (citation omitted)); Johnson v. Sec'y,
Dep't of Corr., 643 F.3d 907, 934–35 (11th Cir.2011) (noting
counsel may fail to investigate line of mitigating evidence
because of “strategic purpose” of “avoiding the possibility of
opening the door to what could be harmful evidence”); see
also Suggs v. McNeil, 609 F.3d 1218, 1231 (11th Cir.2010)
(observing that evidence of alcohol abuse “is often a ‘twoedged sword’ ” that may have caused some jurors to vote
for death); Grayson v. Thompson, 257 F.3d 1194, 1227 (11th
Cir.2001) (concluding alcohol-abuse evidence could have
been harmful); Tompkins v. Moore, 193 F.3d 1327, 1338
(11th Cir.1999) (same); Waldrop v. Jones, 77 F.3d 1308, 1313
(11th Cir.1996) (same). In any event, the alcohol evidence
was inconsistent with Salnick's penalty phase strategy of
generating a measure of sympathy for Pooler and showing
him to be a good friend and family man, a military veteran,
and a productive, employed member of society. See Housel,
238 F.3d at 1296 (finding reasonable counsel's choice to
employ a humanizing penalty phase strategy that emphasized
the defendant's “family-friendly side” instead of presenting
evidence of his intoxication on the night of the murder).
Accordingly, the Florida Supreme Court's rejection of this
allegation of deficient performance, as with the others,
was reasonable and consistent with existing Supreme Court
precedent.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

E. Prejudice
Likewise, Pooler has not met his burden under AEDPA of
showing that the Florida Supreme Court's finding that Pooler
was not prejudiced was (1) contrary to prior Supreme Court
holdings, (2) based on an unreasonable application of prior
Supreme Court holdings, or (3) based on an unreasonable
determination of the facts in light of the evidence presented
in state court.
Much of the 3.850 evidence Pooler claims his trial counsel
Salnick should have presented in the penalty phase was not
mitigating but aggravating, or else would have opened the
door to the introduction of aggravating evidence that would
have diluted its impact. See Reed v. Sec'y, Fla. Dep't of
Corr., 593 F.3d 1217, 1246 (11th Cir.2010) (“The probability
of proposed mitigating evidence opening the door to strong
aggravating evidence is an important factor to consider in
assessing the reasonable probability of a different sentencing
result.”); Wood v. Allen, 542 F.3d 1281, 1313 (11th Cir.2008),
aff'd, 558 U.S. 290, 130 S.Ct. 841, 175 L.Ed.2d 738 (2010)
(“[W]e have rejected prejudice arguments where mitigation
evidence was a ‘two-edged sword’ or would have opened the
door to damaging evidence.”); see also Suggs, 609 F.3d at
1231–33; Grayson, 257 F.3d at 1227–28; Waldrop, 77 F.3d
at 1313. For example, the school records contain repeated
negative comments about Pooler's diligence, conduct, and
attendance.15 The military records show that *1276 Pooler
was frequently disciplined for offenses, mostly absences
without leave, and was found guilty in a court-martial for
using disrespectful language to a superior officer and for
refusing to obey orders and suffered a reduction in rank.
And the 3.850 evidence includes numerous instances of
Pooler displaying a bad, violent temper: (1) nephew Brian
Warren said that Pooler “became violent and had a hard
time controlling his temper”; (2) Brian Warren was “actually
physically afraid of” Pooler in the time period leading up to
Brown's murder, and Darren Warren also said that Pooler's
behavior was frightening; and (3) Pooler, while drunk, told
Brian Warren he would kill Brown and several times told
Brown that he would kill her. Salnick too testified that he
had discovered evidence that Pooler had a bad temper, a
violent background, and was known to argue with people
and carry a gun.16 Admitting such testimony would have
negated Salnick's successful attempt at keeping this harmful
information from the jury.
15

Pooler's school records contain notes such as, “Leroy
stays out of school too much,” “School doesn't seem to

interest Leroy,” he is “very slow ... [and] plays and talks
while in class,” he “is very mischievous, stays out of
school playing hooky,” and he “could do much better.”

16

For instance, Pooler's supervisor Carlton Weeks testified
that Pooler was ill-tempered and aggressive, that people
did not want to work with him, that he seemed to be a
violent person, and that Weeks knew of one instance in
which Pooler brandished a gun during an argument.

Other 3.850 evidence Pooler claims Salnick should have
presented was merely cumulative to evidence Salnick already
put on. Brian and Darren Warren testified that Pooler tried
to be a good father to his four daughters, but Pooler's
other family members testified to that in the penalty phase.
Dr. Brannon's testimony (e.g., that Pooler had borderline
intelligence, poor reading ability, and neuropsychological
deficits) echoed what was already presented through Dr.
Levine and/or Pooler's family members.17 And Pooler's
trial counsel already presented evidence of Pooler's military
service in Vietnam. “Obviously, a petitioner cannot satisfy
the prejudice prong of the Strickland test with evidence that
is merely cumulative of evidence already presented at trial.”
Rose v. McNeil, 634 F.3d 1224, 1243 (11th Cir.), cert. denied,
––– U.S. ––––, 132 S.Ct. 190, 181 L.Ed.2d 98 (2011).
17

In fact, notwithstanding Pooler's arguments that Salnick's
performance was deficient for not obtaining a mitigationspecific expert evaluation of Pooler, Dr. Brannon
conducted such an evaluation and found little that was
not already noted by the several competency experts.

What remains when the damaging and cumulative 3.850
evidence is stripped away is fairly weak. In short, when
we consider all the evidence—what was presented at trial
and in the 3.850 proceeding—we conclude that there is
no reasonable probability that Pooler would have received
a life sentence instead of death. More to the point, we
conclude that the Florida Supreme Court's decision that
Pooler did not satisfy Strickland's prejudice prong was not
contrary to Supreme Court precedent, did not unreasonably
apply Supreme Court precedent, and was not based on an
unreasonable determination of the facts in light of the statecourt evidence.
F. Pooler's Reliance on Porter
We also reject all of Pooler's arguments that are based on
Porter v. McCollum, 558 U.S. 30, 130 S.Ct. 447, 175 L.Ed.2d
398 (2009). First, we point out that the Supreme Court's 2009
Porter decision was after the Florida Supreme Court's 2008
decision in Pooler II, and thus Porter itself does not constitute

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

clearly established federal law for § 2254(d) purposes for
Pooler's case. Thus, the issue is not whether the Florida
Supreme Court's decision in Pooler II was contrary to or an
unreasonable application of Porter, but whether the Supreme
Court's decision in Porter illustrates *1277 that the Florida
Supreme Court unreasonably applied Strickland or some
other pre-Pooler II holding of the United States Supreme
Court.
Second, and in any event, the factual differences between
the two cases—as to both the performance and prejudice
prongs of the ineffective-counsel analysis—are substantial
and numerous. For example, Porter's counsel at the penalty
phase called only one witness (Porter's ex-wife) and presented
almost no mitigating evidence at all. Porter, 130 S.Ct. at 449.
The penalty phase evidence “left the jury knowing hardly
anything about [Porter] other than the facts of his crimes.” Id.
By contrast, Pooler's counsel Salnick called four mental
health experts (neuropsychologist Levine, psychologist
Alexander, and jail psychiatrists Desormeau and Armstrong),
jail officer Arthur Rock, Pooler's friend and co-worker Alice
Bradford, and three of Pooler's family members (his brother,
sister, and father). These witnesses told the jury, among other
things, that Pooler: (1) had an IQ around 80, in the lowaverage to mildly impaired range, and a third-grade reading
level; (2) suffered depressive symptoms in jail, but behaved
well there; (3) was a reliable and punctual employee of the
same employer for seven years; (4) helped Bradford, a single
parent, with yard work; (5) was nice, polite, and respectful to
Bradford and she trusted him around her son; (6) grew up in a
close, supportive, religious family; (7) was a good father to his
four daughters; (8) served more than six years in the United
States Marine Corps, including service in Vietnam; and (9)
had problems, including temper problems, after he returned
from Vietnam. The jury heard much that would humanize
Pooler, but nevertheless recommended that Pooler receive the
death penalty.
Third, Porter materially differs from the instant case because
in Porter, the Supreme Court decided the performance prong
de novo, without AEDPA deference. See id. at 452. And
Porter's trial counsel's penalty-phase preparation was plainly
deficient. As the Supreme Court noted, Porter's counsel: (1)
“had only one short meeting with Porter regarding the penalty
phase”; (2) did not interview Porter's family members; (3)
did not ever request Porter's school, military, and medical
records; (4) ignored avenues of investigation revealed by
the court-ordered competency evaluations, which “reported

Porter's very few years of regular school, his military service
and wounds sustained in combat, and his father's ‘overdiscipline’ ”; and (5) told the jury that “Porter was not
‘mentally healthy’ ” but did not present any mental health
evidence. Id. at 449, 453 (brackets omitted). Here, not only
do we have a decision of the Florida Supreme Court on
counsel's performance to which we must defer under AEDPA,
but the evidence recounted above demonstrates that trial
counsel Salnick investigated mitigating evidence much more
thoroughly and presented much more of what he found.
Further, as to prejudice, the mitigating evidence adduced
in Porter's 3.850 proceedings was far more powerful than
that present here. In Porter, unlike this case, there was
evidence of extensive childhood physical abuse: Porter's
father routinely beat Porter's mother in Porter's presence,
despite Porter's attempts to protect her, and Porter himself was
a “favorite target” of his father's abuse. Id. at 449. Porter's
father beat Porter and, at least once, shot at him with a
gun. Id. According to Porter's siblings, Porter's father “was
violent every weekend.” Id. Porter's case also featured expert
testimony that Porter had brain damage, which is not present
in this case. Id. at 451.
Additionally, Porter's 3.850 hearing featured detailed and
moving testimony about *1278 Porter's military service
from Porter's company commander. Id. at 450. This testimony
revealed that: (1) Porter enlisted in the Army at age 17 and
served in the Korean War; (2) at the battle of Kunu-ri, Porter's
unit fought in bitter cold, with little or no food or sleep through
five days of combat, all of which Porter endured while having
a gunshot wound in his leg; (3) Porter's unit then “engaged in
a ‘fierce hand-to-hand fight’ ” with the enemy before finally
receiving permission to withdraw; (4) less than three months
later, Porter fought at the battle of Chip'yong-ni, during which
Porter's regiment “was cut off from the rest of the Eighth
Army and defended itself for two days and two nights under
constant fire”; (5) Porter's company was ordered to charge
the enemy's defensive positions on high ground, during
which the company came under heavy mortar, artillery, and
machine gun fire; (6) Porter's company suffered more than
50% casualties in the battle, and Porter himself was wounded
again; and (7) for his wartime military service, Porter was
awarded two Purple Hearts, the Combat Infantryman Badge,
and other decorations, and his unit received the Presidential
Unit Citation for its performance at Chip'yong-ni. Id. at 449–
50.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18

Pooler v. Secretary, Florida Dept. of Corrections, 702 F.3d 1252 (2012)
23 Fla. L. Weekly Fed. C 1717

In contrast, Pooler's 3.850 proceedings produced no evidence
of childhood physical abuse and much less detailed evidence
of Pooler's wartime service in Vietnam. Pooler's military
records did show that he participated in counter-insurgency
and combat operations and was awarded three basic service
medals. But no one with first-hand knowledge of Pooler's
wartime service testified on his behalf either at trial or in the
3.850 proceedings.18
18

As to adjustment problems after wartime, the Supreme
Court noted that “Porter's expert testified that [Porter's]
symptoms would easily warrant a diagnosis of
posttraumatic stress disorder.” Porter, 130 S.Ct. at 450
n. 4. Pooler's 3.850 expert Dr. Brannon, however, could
not say whether Pooler's symptoms actually rose to the
level of PTSD.

And Pooler's military records show that he was frequently the
subject of military discipline. While both Porter and Pooler
were disciplined for being absent without leave (“AWOL”),
Pooler's infractions were more numerous and serious. Porter
went AWOL twice while in Korea—for which he was not
punished at all because unauthorized absences in the field
were not uncommon occurrences in wartime and sometimes
were unintentional—and once back in the United States in
order to see his son. Id. at 450 & n. 3. Pooler, on the other
hand, was found AWOL six times in one year, and was also
punished for using disrespectful language to a superior officer
and for refusing to obey orders. As the Florida Supreme Court
noted in Pooler II, “Pooler's military records revealed that he
was charged with at least nineteen different offenses on fifteen
different occasions between October 1969 and February 1971
and that he was court-martialed for several of these offenses.”
Pooler II, 980 So.2d at 467.
Therefore, Porter presented a far more mitigating evidentiary
profile than this case does. In Porter, the penalty-phase jury
heard almost nothing of Porter except his crimes, but could
have—and should have—been presented with persuasive
evidence of Porter's extensive childhood abuse, his potential
brain damage, and his heroic military service under horrific
conditions, which left him physically and mentally wounded.
In Pooler, though, the jury already heard about Pooler's
close family life; his low intelligence; his being a good
father, friend, and employee; and his voluntary service in the
End of Document

Vietnam War and its negative effect on him. And Pooler's
counsel successfully kept the jury from *1279 hearing
significant negative evidence that was later adduced in the
3.850 proceedings and that is not present in Porter: for
example, that Pooler was aggressive and short-tempered,
that most of his co-workers did not want to work with
him, that Pooler was known to carry a gun and brandish it
during arguments, that Pooler spent time with a prostitute
hours before murdering his ex-girlfriend Brown, that Pooler
was frequently disciplined in the Army, that Pooler was an
indifferent student, and that Pooler's own family members
were afraid of him when he drank, which was frequently.
Simply put, Porter does not show that the Florida Supreme
Court in Pooler II unreasonably applied Strickland or any
other pre-existing United States Supreme Court holding.19
19

Pooler also relies on Sears v. Upton, ––– U.S.
––––, 130 S.Ct. 3259, 177 L.Ed.2d 1025 (2010), but
that case is materially different, too. Sears's counsel
performed only a cursory mitigation investigation and
presented evidence only about the defendant's middleclass upbringing and the potential effect of a death
sentence on his family. Id. at 3261–62. Counsel failed to
discover, or present, any evidence about the defendant
being abused as a child or his substantial cognitive
impairments. Id. at 3262–64. And most importantly, the
Sears Court did not conclude that the defendant had
satisfied the Strickland prejudice prong. Id. at 3267. It
merely found that the state court misapplied Strickland
and remanded for further proceedings. See id. (“It is for
the state court ... to undertake this [Strickland prejudice
prong] reweighing in the first instance.”).

IV. CONCLUSION
For the reasons set forth above, we affirm the district court's
denial of Pooler's § 2254 petition.
AFFIRMED.
All Citations
702 F.3d 1252, 23 Fla. L. Weekly Fed. C 1717

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

19

Pooler v. State, 980 So.2d 460 (2008)

APPENDIX E

33 Fla. L. Weekly S81

980 So.2d 460
Supreme Court of Florida.

Leroy POOLER, Appellant,
v.
STATE of Florida, Appellee.
No. SC05-2191.
|
Jan. 31, 2008.
|
Rehearing Denied April 17, 2008.
Synopsis
Background: Following affirmance of murder conviction
and imposition of death penalty, 704 So.2d 1375, defendant
filed motion for postconviction relief. The Circuit Court,
Palm Beach County, Jorge Labarga J., denied relief.
Defendant appealed.

Opinion
PER CURIAM.
Leroy Pooler appeals an order of the circuit court denying
his motion to vacate his first-degree murder conviction and
sentence of death. We have jurisdiction. See art. V, § 3(b)(1),
Fla. Const. For the reasons set forth in this opinion, we affirm
the trial court's denial of Pooler's motion.

FACTS AND PROCEDURAL HISTORY
On direct appeal, this Court summarized the facts of this case
as follows:

*462 Matthew D. Bavaro and Bradley M. Collins of Bradley
M. Collins, P.A., Fort Lauderdale, FL, for Appellant.

Leroy Pooler was convicted of first-degree murder for the
shooting death of his ex-girlfriend, Kim Wright Brown.
He also was convicted of burglary and attempted firstdegree murder with a firearm. The facts supporting these
convictions are as follows. On January 28, 1995, Carolyn
Glass, a long-time acquaintance of Kim Brown, told her
that Pooler had said he was going to kill her because
if he could not have her, no one else would. (Evidence
showed that Kim Brown had begun seeing another man.)
Two days later, Pooler knocked on the front door of the
apartment where Kim and her younger brother, Alvonza
Colson, lived with their mother. Seeing Pooler through the
door window, Kim told him that she did not want to see
him anymore. Alvonza opened the door halfway and asked
Pooler what he wanted but would not let him in. When
Pooler brandished a gun, Alvonza let go of the door and
tried to run out the door, but he was shot in the back by
Pooler. Pooler pulled Alvonza back into the apartment by
his leg. Kim begged Pooler not to kill her brother or her
and began vomiting into her hands. She suggested they take
Alvonza to the hospital. Pooler originally agreed but then
told Alvonza to stay and call himself an ambulance while
Pooler left with Kim. However, rather than follow Pooler
out the door, Kim shut and locked it behind him. Alvonza
told Kim to run out the back door for her life while he
stayed in the apartment to call for an ambulance. When he
discovered that the telephone wires had been cut, he started
for the back door, just as Pooler was breaking in through
the front entrance.

Bill McCollum, Attorney General, Tallahassee, Florida,
and Lisa-Marie Lerner and Leslie T. Campbell, Assistant
Attorneys General, West Palm Beach, FL, for Appellee.

Pooler first found Alvonza, who was hiding in an area near
the back door, but when he heard Kim yelling for help, he
left Alvonza and continued after Kim. When he eventually

Holdings: The Supreme Court held that:
counsel's failure to investigate and present voluntary
intoxication defense was not deficient assistance;
counsel's failure to present evidence in support of impaired
capacity mitigator was not ineffective assistance;
counsel's failure to investigate and present defendant's poor
school, military, and employment records as mitigation
evidence was not ineffective assistance; and
counsel's retaining as penalty phase mental health experts two
court-appointed doctors was not ineffective assistance.
Affirmed.
Attorneys and Law Firms

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Pooler v. State, 980 So.2d 460 (2008)
33 Fla. L. Weekly S81

caught up with her, he struck her in the head with his gun,
causing it to discharge. In front of numerous witnesses, he
pulled her toward his car as she screamed and begged him
not to kill her. When she fought against going in the car,
Pooler pulled her back toward the apartment building and
shot her several times, pausing once to say, “You want some
more?” Kim had been shot a total of five times, including
once *463 in the head. Pooler then got into his car and
drove away.
The jury recommended death by a vote of nine to
three. The trial court found the following aggravators: (1)
that the defendant had a prior violent felony conviction
(contemporaneous attempted first-degree murder of
Alvonza); (2) that the murder was committed during the
commission of a burglary; and (3) that the murder was
heinous, atrocious, or cruel. The trial court found as
statutory mitigation that the crime was committed while
Pooler was under the influence of extreme mental or
emotional disturbance, but gave that finding little weight....
As nonstatutory mitigation, the trial court found the
defendant's honorable service in the military and good
employment record, as well as the fact that he was a good
parent, had done specific good deeds, possessed certain
good characteristics, and could be sentenced to life without
parole or consecutive life sentences. The only mitigator
given considerable weight was Pooler's honorable military
service; the others were given some to little weight....
Concluding that each of the three aggravators standing
alone would outweigh the mitigating evidence, the court
sentenced Pooler to death.
Pooler v. State, 704 So.2d 1375, 1377 (Fla.1997). On
direct appeal, this Court affirmed Pooler's convictions and
sentences.1
1

On direct appeal, Pooler raised the following issues:
(1) the prosecutor made improper comments during
voir dire; (2) the trial court failed to instruct the
jury on attempted first-degree felony murder; (3) the
trial court erred in finding the heinous, atrocious, or
cruel (HAC) aggravator; (4) the trial court erred in
finding the prior violent felony aggravator; (5) Pooler
lacked the capacity to appreciate the criminality of his
conduct or to conform his conduct to the law; (6)
Pooler was under extreme duress or the substantial
domination of another person at the time the murder
was committed; (7)-(11) the trial court erred in rejecting
the nonstatutory mitigators, including extreme duress,
good jail record/ability to adapt to prison life, low-

normal intelligence, rehabilitable, and heated domestic
dispute; (12) the record on appeal did not contain the
presentence investigation (PSI) report relied upon by
the trial court in rejecting nonstatutory mitigation; (13)
the trial court erred in departing from the sentencing
guidelines without issuing a written contemporaneous
departure order for the offenses of attempted first-degree
murder with a firearm and burglary of a dwelling while
armed; (14) Florida's death penalty is unconstitutional;
and (15) Pooler's death sentence is disproportionate.

Pooler subsequently filed a motion for postconviction relief
pursuant to Florida Rule of Criminal Procedure 3.850, in
which he raised sixteen claims.2 The trial court *464 held an
evidentiary hearing on three of them and subsequently denied
relief on all claims.
2

In his postconviction motion, Pooler claimed the
following: (1) trial counsel failed to investigate and
present a voluntary intoxication defense; (2) trial counsel
failed to properly investigate and present mitigation
(lack of capacity, age, dull intelligence, mental health
problems, intoxication, impoverished background, good
jail record, good parent, and remorse); (3) trial counsel
failed to investigate and present, and trial court
failed to find, mitigation (good jail behavior, low
IQ, and age); (4) the sentencing jury was misled by
comments and instructions which diluted its sense of
responsibility for sentencing; (5) the penalty phase
jury instructions shifted the burden to Pooler to prove
that death was inappropriate; (6) trial counsel failed
to obtain an adequate mental health evaluation and
failed to provide the necessary background information
to the mental health consultants; (7) Pooler's sentence
rests upon an unconstitutionally automatic aggravating
circumstance (the felony murder aggravator); (8) the
heinous, atrocious, or cruel (HAC) aggravator is vague
and overbroad; (9) the cumulative effect of trial counsel
errors denied Pooler effective assistance of counsel; (10)
the sentencing court erred by failing to properly and
timely impose a written sentence of death; (11) the rule
prohibiting juror interviews is unconstitutional; (12) trial
counsel failed to investigate the forensic evidence or
retain a forensic expert; (13) the trial court erred in
permitting the State to introduce gruesome photographs;
(14) Pooler is innocent of the death penalty; (15) Florida's
death penalty statute is unconstitutional because it fails
to prevent the arbitrary and capricious imposition of
the death penalty; (16) Pooler's convictions and death
sentences were obtained in violation of Ring v. Arizona,
536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Pooler v. State, 980 So.2d 460 (2008)
33 Fla. L. Weekly S81
The trial court conducted an evidentiary hearing on
claims one, two, and six.

1. Failure to Investigate and Present a Voluntary
Intoxication Defense3

ANALYSIS
Pooler raises two issues on appeal: (A) trial counsel provided
constitutionally ineffective assistance; and (B) the trial court
erred in summarily denying nine of his postconviction claims.
We address these issues in turn.

A. Ineffective Assistance of Counsel
Pooler argues that his trial counsel was constitutionally
ineffective for (1) failing to investigate and present a
voluntary intoxication defense; (2) failing to investigate and
present evidence of alcohol abuse or dependency in support
of the impaired capacity mitigator; (3) failing to investigate
and present Pooler's school, military, and employment
records in mitigation; and (4) failing to retain adequate
mental health experts and provide them with the necessary
background information to render competent opinions. In
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052,
80 L.Ed.2d 674 (1984), the United States Supreme Court
established a two-prong standard for determining whether
counsel provided constitutionally ineffective assistance. First,
a defendant must demonstrate that counsel's performance
was deficient by pointing to specific acts or omissions
of counsel that are “so serious that counsel was not
functioning as the ‘counsel’ guaranteed the defendant by
the Sixth Amendment.” Id. at 687, 104 S.Ct. 2052; see
also Marshall v. State, 854 So.2d 1235, 1247 (Fla.2003)
(“Under Strickland, ‘counsel has a duty to make reasonable
investigations or to make a reasonable decision that makes
particular investigations unnecessary.’ ”) (quoting Strickland,
466 U.S. at 691, 104 S.Ct. 2052). Second, the defendant must
establish prejudice by “show[ing] that there is a reasonable
probability that, but for counsel's unprofessional errors, the
result of the proceeding would have been different.” 466
U.S. at 694, 104 S.Ct. 2052. A reasonable probability is
a “probability sufficient to undermine confidence in the
outcome.” Id. Because both prongs of the Strickland test
present mixed questions of law and fact, this Court employs
a mixed standard of review, deferring to the circuit court's
factual findings that are supported by competent, substantial
evidence but reviewing the circuit court's legal conclusions de
novo. See Sochor v. State, 883 So.2d 766, 771-72 (Fla.2004).

3

Although the law has since changed, see § 775.051,
Fla. Stat. (1999), voluntary intoxication was an available
defense to negate specific intent at the time of the
killing in this case. See Gardner v. State, 480 So.2d 91
(Fla.1985).

Pooler claims that defense counsel, Michael Salnick, was
ineffective for failing to investigate and present a voluntary
intoxication defense. At the evidentiary hearing, Pooler
introduced evidence relating to his alcohol use. The evidence
included a police report made by Pooler two to three hours
before the murder alleging that someone stole $301 from
him while he was asleep in his vehicle due to intoxication.
Detective Frank Alonzo of the *465 West Palm Beach
Police Department, who made the police report, testified that
although Pooler smelled of alcohol at the time he came to the
police department, he did not appear intoxicated, did not slur
his speech, and answered all questions. Because Pooler did
not seem intoxicated, Detective Alonzo did not prevent him
from getting into his car and driving after making the report.
Pooler also presented two handwritten letters authored by
his nephews, Brian and Darren Warren, attesting to Pooler's
alcohol problem. Brian's letter stated, “On the morning of
the shooting ... Leroy called me [and] told me he knew Kim
had been killed but he could not remember what happened.
He was very upset and it seemed he was still drunk.” Both
nephews stated that they would have testified at trial but were
not contacted by Pooler's defense team. The postconviction
trial court denied this claim because the evidence did not
support a voluntary intoxication defense and because Pooler
thwarted any possibility of raising this defense when he
refused to admit to shooting Kim Brown.
We affirm the trial court's order. Although the evidence
presented at the evidentiary hearing suggests that Pooler
may have had a history of alcohol abuse and may have
been drinking the night before and soon after the murder,
none of the evidence establishes that he was intoxicated at
the time of the murder. Indeed, the testimony of Detective
Alonzo establishes that Pooler was not intoxicated just a
few hours before the murder. Pooler presented no evidence
that he became intoxicated between the time he left the
police department and the time he arrived at Kim Brown's
house. Accordingly, he failed to establish any reasonable basis
upon which to assert the affirmative defense of voluntary
intoxication. See Reaves v. State, 826 So.2d 932, 938-39,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Pooler v. State, 980 So.2d 460 (2008)
33 Fla. L. Weekly S81

n. 9 (Fla.2002) (holding that in order to successfully assert
the defense of voluntary intoxication, the defendant must
come forward with evidence of intoxication at the time of the
offense sufficient to establish that he was unable to form the
intent necessary to commit the crime charged).
Moreover, Salnick made a reasonable tactical decision not to
pursue a voluntary intoxication defense. See Rivera v. State,
717 So.2d 477, 485 (Fla.1998) (holding that trial counsel
made a reasonable tactical decision to forego a voluntary
intoxication defense because “there was no evidence that
Rivera was intoxicated at the time of the murder ”). Salnick
testified that he considered a possible voluntary intoxication
defense but chose not to present it because Pooler could recall
specific details regarding the day of the murder and because
neither Pooler nor any of his family members mentioned that
Pooler had a history of alcoholism or that he was intoxicated
at the time of the murder.
Additionally, the trial court found, based on competent,
substantial evidence, that Pooler refused to participate in
any defense that required him to admit that he did the
shooting. Counsel was thus prevented from asserting the
voluntary intoxication defense. See Rivera, 717 So.2d at
485 (holding that counsel's performance was not deficient
because “Rivera's unwavering professions of innocence
short-circuited any credible voluntary intoxication defense
during the guilt phase”); Rose v. State, 617 So.2d 291,
294 (Fla.1993) (“When a defendant preempts his attorney's
strategy by insisting that a different defense be followed, no
claim of ineffectiveness can be made.”) (quoting Mitchell v.
Kemp, 762 F.2d 886, 889 (11th Cir.1985)). Pooler denies that
he refused to admit to the killing. However, a memorandum
from Salnick to Pooler on the eve of trial confirms that Pooler
ultimately rejected a plea deal for a life sentence, refused
*466 to admit to shooting Kim, and directed Salnick to
pursue a sufficiency of the evidence strategy. In light of
this evidence, we defer to the trial court's factual finding
and affirm its conclusion that Salnick was not ineffective
in foregoing a voluntary intoxication defense because it
would have undermined Pooler's chosen defense strategy. See
Freeman v. State, 858 So.2d 319, 323 (Fla.2003) (holding
that while the performance and prejudice prongs are mixed
questions of law and fact subject to a de novo standard,
deference is given to the trial court's factual findings which
are supported by competent, substantial evidence).
Pooler failed to prove any deficiency in Salnick's performance
in regard to this issue. In light of this failure, we need not

address the prejudice prong. See Strickland, 466 U.S. at 697,
104 S.Ct. 2052 (“[T]here is no reason for a court deciding an
ineffective assistance claim ... to address both components of
the inquiry if the defendant makes an insufficient showing on
one.”); Downs v. State, 740 So.2d 506, 518 n. 19 (Fla.1999)
(finding no need to address prejudice prong where defendant
failed to establish deficient performance element).

2. Failure to Investigate and Present Evidence of Alcohol
Abuse or Dependency in Support of the Impaired
Capacity Mitigator
Pooler next argues that counsel was ineffective for failing
to investigate and present evidence of his history of alcohol
abuse and dependency in support of the impaired capacity
mitigator. See Stewart v. State, 558 So.2d 416 (Fla.1990).
As evidence, Pooler cites the police report he made hours
before the murders, the testimony of Detective Alonzo, and
the letters from his nephews, Brian and Darren Warren.
In addition, Pooler's postconviction expert, Dr. Michael
Brannon, testified that he diagnosed Pooler with alcohol
dependency disorder and hepatitis C. The postconviction
trial court denied this claim because Salnick conducted a
reasonable investigation and successfully prevented the State
from obtaining an instruction on the cold, calculated, and
premeditated (CCP) aggravating circumstance by introducing
evidence during the penalty phase that Pooler had been
drinking two days before the murder when he threatened to
kill Kim Brown.
We affirm the trial court's conclusion. First, Salnick's
performance was not deficient. As stated earlier,
Salnick conducted a reasonable investigation into Pooler's
background. Neither Pooler nor his family indicated to
Salnick that he had a substance abuse problem or that he
had been drinking at the time of the shooting. However,
Salnick discovered that Pooler had been drinking two days
before the murder when he threatened to kill Kim Brown.
He used this information during the penalty phase to prevent
the State from obtaining an instruction on CCP. Further,
Salnick testified at the evidentiary hearing that he chose
not to introduce Pooler's police report during the penalty
phase because it would open the door for the State to
cross-examine Pooler regarding the fact that he had been
with a prostitute when he passed out drunk and that she
stole his money. This was a reasonable tactical decision
made after a reasonable investigation; therefore, Salnick's
performance was not deficient. See Occhicone v. State, 768

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Pooler v. State, 980 So.2d 460 (2008)
33 Fla. L. Weekly S81

So.2d 1037, 1048 (Fla.2000) (“[S]trategic decisions do not
constitute ineffective assistance of counsel if alternative
courses have been considered and rejected and counsel's
decision was reasonable under the norms of professional
conduct.”). Moreover, as discussed earlier, none of the
evidence introduced by Pooler at the evidentiary hearing
shows *467 that he was intoxicated at the time of the murder.
Therefore, any alleged failure on Salnick's part to investigate
and present it at trial was not prejudicial.

3. Failure to Investigate and Present School, Military, and
Employment Records in Mitigation
Pooler next claims that Salnick was ineffective for failing to
investigate and present his school, military, and employment
records in mitigation. According to Pooler, counsel could
have used the information contained in these records to
mitigate his sentence by showing that Pooler had dull
intelligence and a troubled background. At the postconviction
evidentiary hearing, Pooler's collateral counsel introduced his
military, school, and employment records. Pooler's military
records revealed that he was charged with at least nineteen
different offenses on fifteen different occasions between
October 1969 and February 1971 and that he was courtmartialed for several of these offenses. His school records
show that he was an average student in early elementary
school, but that his grades grew progressively worse each
year. Some of Pooler's teachers commented that he was “very
slow” and “mischievous,” that he “play[s] hooky,” “does
not attend school regularly,” “is not interested in school,”
“need[s] guidance,” and “may get with the wrong crowd
easily.” Pooler failed multiple grades and ultimately never
graduated from high school. In addition, Pooler's employment
records indicate that he had been employed as a refuse worker
and quit without notice. Notwithstanding Salnick's failure to
obtain these records, the postconviction trial court concluded
that he conducted a reasonable investigation, noting that
when written documentation was not available, Salnick
found alternate means to corroborate Pooler's statements
regarding his background (i.e., interviews with Pooler's
family members).
We affirm the trial court's conclusions. Salnick conducted a
reasonable investigation. His failure to obtain Pooler's records
does not rise to the level of ineffective assistance. Pooler
consistently represented to Salnick that he was an average
student, graduated from high school, and was honorably
discharged from the Marine Corps. To test the validity

of Pooler's representations, Salnick's investigator, Marvin
Jenne, traveled to Louisiana and interviewed members of
Pooler's family. All of the family members Jenne located and
interviewed corroborated Pooler's positive representations.
Further, Jenne made an attempt, albeit unsuccessful, to
obtain Pooler's school records. Based on Pooler's positive
representations of himself which were substantiated by his
family members, Salnick had no reason to believe Pooler's
records would contain anything negative or mitigating. See
Rompilla v. Beard, 545 U.S. 374, 383, 125 S.Ct. 2456, 162
L.Ed.2d 360 (2005) (“[T]he duty to investigate does not
force defense lawyers to scour the globe on the off chance
something will turn up; reasonably diligent counsel may
draw a line when they have good reason to think further
investigation would be a waste.”). Therefore, he formed a
reasonable trial strategy of presenting Pooler in a positive
light.
Moreover, no prejudice resulted from counsel's choice of
strategy. At trial, Salnick showed that Pooler had been a
productive member of society and crime-free for fifteen
years prior to the murder. He presented evidence that Pooler
had served honorably in the military in Vietnam, reenlisted,
raised a daughter, took care of his relatives, was a good
parent, worked at the same job for eight years, and was
well liked by his coworkers. Of all the mitigation presented,
the trial court gave considerable weight only to Pooler's
honorable *468 military service. Had Salnick introduced
Pooler's military, school, or employment records, he would
have undermined Pooler's only significant mitigation. See
Reed v. State, 875 So.2d 415, 437 (Fla.2004) (“An ineffective
assistance claim does not arise from the failure to present
mitigation evidence where that evidence presents a doubleedged sword.”). Furthermore, Pooler's records would not
have opened up mitigation leads sufficient to overcome the
aggravation found by the trial court. Accordingly, counsel's
failure to obtain these records does not undermine confidence
in Pooler's death sentence.

4. Failure to Retain Adequate Mental Health Experts
and Provide Them with the Necessary Background
Information to Render Competent Opinions
Pooler next claims that counsel was ineffective for
failing to retain adequate mental health experts and provide
them with the necessary background information to render
competent opinions. Specifically, Pooler argues that counsel
rendered ineffective assistance by retaining as penalty phase

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Pooler v. State, 980 So.2d 460 (2008)
33 Fla. L. Weekly S81

mental health experts two court-appointed doctors who
evaluated Pooler solely for competency prior to trial and two
psychiatrists who treated Pooler while he was in jail.
The record reveals that Drs. Stephen Alexander and
Laurence Levine evaluated Pooler for competency prior
to trial and testified at his competency hearing. At the
pretrial competency hearing, Dr. Alexander questioned
Pooler's ability to understand courtroom procedures and
to communicate sufficiently with counsel, ultimately
concluding that Pooler was not competent to stand trial. He
estimated that Pooler's IQ was between 75 and 85 and found
that Pooler was not suffering from any undue stress, mental
illness, or personality disorder. Dr. Levine also expressed
concern regarding Pooler's ability to assist his attorney in
preparing a defense and in challenging the State's witnesses.
He found Pooler to be of borderline intelligence and noted
inconsistencies in the information Pooler gave him versus his
test results. However, Dr. Levine ultimately determined that
Pooler was competent to stand trial. Based on this testimony,
the trial court determined that Pooler had an IQ of 80 and was
competent to stand trial.
During the penalty phase, Salnick called Drs. Levine
and Alexander as defense mental health experts. They
provided the same information regarding the results of their
competency evaluations as they did at Pooler's competency
hearing. Dr. Alexander further opined that Pooler's capacity to
appreciate the criminality of his conduct or to conform to the
requirements of the law was not impaired. In addition, Salnick
elicited testimony from Drs. Michael Armstrong and Jude
Desormeau, who treated Pooler while in jail. Dr. Armstrong
testified that Pooler was depressed, complained of hearing a
voice in his head, stated that he had no reason to live, and
felt like he was going to explode. He diagnosed Pooler as
suffering from judgment disorder with emotional features. Dr.
Desormeau testified that he examined Pooler while in jail
because he was a suicide risk. He was not aware that Pooler
claimed to be hearing voices but testified that Pooler was
suffering from depression as a result of his murder charge.
At the postconviction evidentiary hearing, Pooler presented
the testimony of Dr. Brannon, who tested Pooler for
competency prior to the hearing and conducted a forensic
mental health evaluation for the purpose of mitigation. Dr.
Brannon ultimately concluded that Pooler was competent to
proceed. However, Dr. Brannon testified that Pooler had a
borderline retarded *469 IQ of 75 and that he suffered
neurological damage from head injuries. Pooler did not call

any of his trial experts to testify at the evidentiary hearing.
Following the hearing, the postconviction trial court denied
this claim, concluding that the expert testimony presented
by Salnick met the requirements of Strickland and Ake v.
Oklahoma, 470 U.S. 68, 83, 105 S.Ct. 1087, 84 L.Ed.2d
53 (1985) (holding that a defendant must have access to a
“competent psychiatrist [or other mental health professional]
who will conduct an appropriate examination and assist in
evaluation, preparation, and presentation of the defense”).
We affirm the trial court's denial of this claim. As
explained earlier, Salnick reasonably relied on Pooler's
corroborated representations regarding his scholastic and
military background. See Wiggins v. Smith, 539 U.S. 510,
533, 123 S.Ct. 2527, 156 L.Ed.2d 471 (2003) (“Strickland
does not require counsel to investigate every conceivable
line of mitigating evidence no matter how unlikely the effort
would be to assist the defendant at sentencing.”). Salnick
communicated this information to the experts, and Pooler
also gave the experts the same information during their
evaluations of him. Furthermore, Salnick testified at the
evidentiary hearing that he retained these experts because,
given their neutrality, they would be more credible and
difficult to impeach. This was a reasonable strategic decision.
See Occhicone, 768 So.2d at 1048.
Even if we assume counsel's decision to forego further testing
constituted deficient performance, Pooler failed to establish
that any prejudice resulted from it. He presented no evidence
that the defense experts were incompetent or that they failed
to assist in the evaluation, preparation, and presentation
of the defense. See Jones v. State, 845 So.2d 55, 67-68
(Fla.2003). Nor did Pooler identify anything of substance
that a more in-depth psychoanalysis would have added.
Dr. Brannon's finding that Pooler had neurological damage
from head injuries was already indicated in Dr. Levine's
evaluation. Also, Dr. Brannon's determination that Pooler had
a borderline retarded IQ of 75 does not constitute a clear
indication of actual mental retardation because it is within
the range estimated by Dr. Alexander and is not substantially
inconsistent with the trial court's finding that Pooler had an
IQ of 80. Furthermore, because Pooler did not call any of
his trial experts to testify at his postconviction hearing, he
failed to demonstrate that they would have changed their
opinions had they conducted more in-depth psychological
evaluations or been provided with his records. Under these
circumstances, a new sentencing proceeding is not mandated.
See State v. Sireci, 502 So.2d 1221, 1224 (Fla.1987) (“[A]
new sentencing hearing is mandated in cases which entail

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Pooler v. State, 980 So.2d 460 (2008)
33 Fla. L. Weekly S81

psychiatric examinations so grossly insufficient that they
ignore clear indications of either mental retardation or organic
brain damage.”).

B. Summarily Denied Claims
Pooler also asserts that the circuit court erred in summarily
denying nine of his postconviction claims. We disagree
and affirm the trial court's order. Generally, a defendant is
entitled to an evidentiary hearing on a postconviction relief
motion unless “(1) the motion, files, and records in the case
conclusively show that the [defendant] is entitled to no relief,
or (2) the motion or a particular claim is legally insufficient.”
Freeman v. State, 761 So.2d 1055, 1061 (Fla.2000); accord
Fla. R.Crim. P. 3.850(d).4 In such a case, *470 “[t]he
defendant bears the burden of establishing a prima facie case
based upon a legally valid claim. Mere conclusory allegations
are not sufficient to meet this burden.” Freeman, 761 So.2d
at 1061. However, when reviewing a court's summary denial
of an initial rule 3.850 motion filed in a capital case, the
Court will affirm the ruling only if the State has shown that
the motion is legally flawed or that the record conclusively
demonstrates that the defendant is entitled to no relief. See
Patton v. State, 784 So.2d 380, 386 (Fla.2000). This Court
must accept Pooler's allegations as true “to the extent they are
not refuted by the record.” Peede v. State, 748 So.2d 253, 257
(Fla.1999). We briefly address each claim.
4

Pooler's amended rule 3.850 motion was filed on March
13, 2000, before the rule was changed. See generally
Fla. R.Crim. P. 3.851(a) (“This rule ... shall apply to all
postconviction motions filed on or after October 1, 2001,
by prisoners who are under sentence of death. Motions
pending on that date are governed by the version of this
rule in effect immediately prior to that date.”). Therefore,
we analyze Pooler's claims under the summary denial
standard set forth in rule 3.850(d).

Age, Low IQ, and Good Jail Behavior Mitigators
Pooler asserts that the postconviction trial court erred in
summarily denying his claim that his trial counsel failed
to investigate and present, and the trial court failed to
find, the age, low IQ, and good jail behavior mitigators.
The postconviction trial court summarily denied this claim
as procedurally barred because it was raised and rejected
by this Court on direct appeal. We affirm the trial court's
summary denial of this claim. See Pooler, 704 So.2d at

1379-80 (holding that the sentencing court's failure to find
these mitigators was either not an abuse of discretion or
harmless error); see also Spencer v. State, 842 So.2d 52,
60-61 (Fla.2003) (quoting Smith v. State, 445 So.2d 323, 325
(Fla.1983) (“Issues which either were or could have been
litigated at trial and upon direct appeal are not cognizable
through collateral attack.”)).

1. Misleading Comments and Jury Instructions
Pooler next argues that the postconviction trial court erred
in summarily denying his claim that the jury was misled
by (1) the trial court's repeated instructions that the jury's
sentencing role was merely advisory; (2) the trial court's
instructions and the State's argument which, Pooler claims,
shifted the burden to Pooler to prove that death was an
inappropriate sentence; and (3) the trial court's instructions
that Pooler claims were unconstitutionally vague and allowed
the jury to consider the murder in the course of a felony
aggravator as an automatic aggravator. Pooler also argues
that trial counsel was ineffective for failing to object to these
comments and instructions. The postconviction trial court
summarily denied these claims as both procedurally barred
and legally insufficient.
We affirm the trial court's decision. Pooler's claims of
prosecutorial misconduct and trial court error should have
been raised on direct appeal. See Rodriguez v. State, 919
So.2d 1252, 1262 n. 7, 1280 (Fla.2006); Occhicone, 768
So.2d at 1040 n. 3. (“[C]laims challenging the validity
of jury instructions should be raised on direct appeal, not
on motions for postconviction relief.”). Similarly, Pooler's
claims regarding the adequacy of jury instructions are
procedurally barred because they should have been raised
on direct appeal. See Thompson v. State, 759 So.2d 650,
665 (Fla.2000). We will not consider such procedurally
barred claims under the guise of ineffective assistance of
counsel. See Freeman, 761 So.2d at 1067 (holding that
claims that could have been raised on direct appeal cannot
be relitigated under the guise of ineffective assistance of
counsel). *471 Moreover, Pooler's ineffectiveness claim
for failure to object to these jury instructions is legally
insufficient. The instructions were proper and were consistent
with the standard jury instruction. See Rodriguez, 919 So.2d
at 1280-81 (rejecting claims that jury instructions diluted the
jury's responsibility for its sentencing role, shifted the burden
to the defendant to prove that death was inappropriate, and
allowed the jury to consider the murder in the course of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Pooler v. State, 980 So.2d 460 (2008)
33 Fla. L. Weekly S81

a felony aggravator as an automatic aggravator); Griffin v.
State, 866 So.2d 1, 14 (Fla.2003) (rejecting claim that the
murder in the course of a felony aggravating circumstance
allows the jury to consider an automatic aggravator in
recommending whether to impose a death sentence); Sweet v.
Moore, 822 So.2d 1269, 1274 (Fla.2002) (rejecting claim that
the standard jury instruction impermissibly shifted the burden
to the defense to prove that death was not the appropriate
sentence); see also Cherry v. State, 781 So.2d 1040, 1054
(Fla.2000) (“[C]ounsel cannot be deemed ineffective for
failing to object to proper jury instructions.”).

3. Counsel's Failure to Investigate Forensic Evidence and
Obtain Proper Forensic Experts
Next, Pooler claims that the trial court erred in summarily
denying his claim that trial counsel was ineffective for failing
to investigate forensic evidence and for failing to obtain
proper forensic experts. Pooler argues that he was prejudiced
because a well-informed, independent medical expert could
have opined that the victim died instantaneously and, thus, the
heinous, atrocious, or cruel (HAC) aggravating factor would
not have applied. The trial court summarily denied this claim
as legally insufficient because Pooler failed to identify what
evidence or expert opinion his trial counsel could have offered
to show that the victim's death was instantaneous so as to
refute the HAC finding.
We affirm the trial court's conclusion. This claim is legally
insufficient because Pooler fails to identify what evidence or
expert opinion his trial counsel could have offered to show
that the victim's death was instantaneous. Moreover, even if
forensic evidence could have shown that the victim's death
was instantaneous, we would not strike the HAC aggravator.
As we held on direct appeal, “the fear, emotional strain,
and terror of the victim during the events leading up to the
murder” support the trial court's HAC finding, “even where
the victim's death was almost instantaneous.” See Pooler, 704
So.2d at 1378.

4. Counsel's Failure to Object to the Introduction of
Gruesome Photographs
Pooler further asserts that the trial court erred in summarily
denying his claim that counsel rendered ineffective assistance
by failing to object to the State's introduction of gruesome
photographs. The postconviction trial court determined that

this claim is legally insufficient because counsel raised a
timely, albeit unsuccessful, objection to the admission of the
photographs in question.
We affirm the trial court's decision. The record conclusively
shows that Salnick's performance was not deficient because
he challenged the admission of the photographs by written
motion when they were offered into evidence by the State.
Even if counsel had failed to sufficiently object, it is clear
that no prejudice resulted because the trial court did not abuse
its discretion in admitting the photographs. See Pangburn v.
State, 661 So.2d 1182, 1187 (Fla.1995) (“[T]he admission of
photographic evidence is within the trial judge's discretion
and a trial judge's ruling on this *472 issue will not
be disturbed on appeal unless there is a clear showing of
abuse.”). Each photograph depicted a different wound and
none appeared particularly gory. See Rose v. State, 787 So.2d
786, 794 (Fla.2001) (“[A]utopsy photographs, even when
difficult to view, are admissible to the extent that they fairly
and accurately establish a material fact and are not unduly
prejudicial.”); Czubak v. State, 570 So.2d 925, 928 (Fla.1990)
(holding that photographs are admissible if they are “relevant
and not so shocking in nature as to defeat the value of their
relevance”); see also Larkins v. State, 655 So.2d 95, 98
(Fla.1995) (upholding the admission of photographs where
they are relevant to “explain a medical examiner's testimony,
to show the manner of death, the location of wounds, and the
identity of the victim”).

5. Juror Interviews
Next, Pooler argues that the trial court erred in summarily
denying his claim that the rule prohibiting juror interviews is
unconstitutional. The trial court summarily denied this claim,
determining that it was both procedurally barred because it
was not raised on direct appeal and meritless because Pooler
failed to make a prima facie case of jury misconduct. We
agree. This claim is procedurally barred because it should
have been raised on direct appeal. See Rodriguez, 919 So.2d
at 1262 n. 7. It is also legally insufficient as this Court
has previously rejected similar constitutional challenges to
Florida Rule of Professional Conduct 4-3.5(d)(4). See Power
v. State, 886 So.2d 952, 957 (Fla.2004); State v. Duncan, 894
So.2d 817, 826 & n. 7 (Fla.2004); Johnson v. State, 804 So.2d
1218, 1224 (Fla.2001). Moreover, Pooler did not state a prima
facie case of jury misconduct. See Johnson, 804 So.2d at 1225
(“[J]uror interviews are not permissible unless the moving
party has made sworn allegations that, if true, would require

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Pooler v. State, 980 So.2d 460 (2008)
33 Fla. L. Weekly S81

the court to order a new trial because the alleged error was so
fundamental and prejudicial as to vitiate the entire proceeding
[ ].”). Without more than what was pled, this claim is nothing
more than an impermissible fishing expedition after a guilty
verdict has been returned. See Griffin v. State, 866 So.2d 1, 20
(Fla.2003); Arbelaez v. State, 775 So.2d 909, 920 (Fla.2000).

procedurally barred because it was raised and rejected on
direct appeal); Muhammad v. State, 603 So.2d 488, 489
(Fla.1992) (“Issues which either were or could have been
litigated at trial and upon direct appeal are not cognizable
through collateral attack.”).

8. Florida's Death Penalty Statute Violates Ring
6. Innocent of the Death Penalty
Pooler further contends that the trial court erred when it
summarily denied his claim that he is innocent of the death
penalty due to a lack of valid aggravating circumstances. The
trial court summarily denied this claim because the record
revealed that Pooler failed to demonstrate that none of the
aggravators apply.
We affirm the trial court's summary denial of this claim.
We determined the validity of the prior violent felony and
HAC aggravators on direct appeal. Pooler, 704 So.2d at
1378-79, 1381. Pooler does not successfully challenge these
aggravators in his postconviction motion. Therefore, Pooler
fails to present “evidence that an alleged constitutional error
implicates all of the aggravating factors found to be present by
the sentencing body.” Johnson v. Singletary, 938 F.2d 1166,
1183 (11th Cir.1991).

7. Florida's Death Penalty is Unconstitutionally Vague
Pooler next asserts that the trial court erred in summarily
denying his claim that Florida's capital sentencing scheme
is unconstitutionally vague because it fails to provide a
standard of proof for determining that the aggravating
circumstances outweigh the mitigating circumstances and
because the statute does not sufficiently define each
aggravating circumstance. The trial court denied this claim
as procedurally barred because Pooler unsuccessfully *473
challenged the constitutionality of Florida's death penalty
statute on direct appeal. We affirm the trial court's denial of
this claim. Pooler, 704 So.2d at 1380-81; see also Rodriguez,
919 So.2d at 1262 n. 7 (holding that Rodriguez's claim
concerning the constitutionality of the death penalty was
End of Document

Pooler further contends that the trial court erred in summarily
denying his claim that Florida's death penalty statute is
unconstitutional in light of Ring v. Arizona, 536 U.S. 584, 122
S.Ct. 2428, 153 L.Ed.2d 556 (2002). We affirm the trial court's
denial of this claim. See Johnson v. State, 904 So.2d 400, 412
(Fla.2005).

9. Cumulative Error
Lastly, Pooler argues that the trial court erred in summarily
denying his claim that the number and types of error
that occurred cumulatively prevented him from receiving
a constitutionally adequate trial. This claim is legally
insufficient. See Griffin, 866 So.2d at 22 (“[W]here individual
claims of error alleged are either procedurally barred or
without merit, the claim of cumulative error must fail.”);
accord Downs v. State, 740 So.2d 506, 509 n. 5 (Fla.1999).

CONCLUSION
For the foregoing reasons, we affirm the circuit court's order
denying Pooler's motion for postconviction relief.
It is so ordered.

LEWIS, C.J., and WELLS, ANSTEAD, PARIENTE,
QUINCE, CANTERO, and BELL, JJ., concur.
All Citations
980 So.2d 460, 33 Fla. L. Weekly S81
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Pooler v. State, 704 So.2d 1375 (1997)

APPENDIX F

22 Fla. L. Weekly S697

704 So.2d 1375
Supreme Court of Florida.

Leroy POOLER, Appellant,
v.
STATE of Florida, Appellee.
No. 87771.
|
Nov. 6, 1997.
|
Rehearing Denied Jan. 23, 1998.
Synopsis
Defendant was convicted of first-degree murder, burglary,
and first-degree attempted murder. The Circuit Court, Palm
Beach County, Virginia Gay Broome, J., sentenced defendant
to death, and he appealed. The Supreme Court held that:
(1) prosecutor's comment on meaning of presumption
of innocence during voir dire was not improper; (2)
contemporaneous conviction prior to sentencing qualified as
previous convictions for purposes of sentencing; and (3) death
penalty was not disproportionate.
Affirmed.
Shaw, J., concurred as to conviction, and in result only as to
sentence.
Anstead, J., concurred in part and dissented in part and filed
opinion, in which Kogan, C.J., concurred.
Attorneys and Law Firms
*1376 Michael D. Lebedeker, West Palm Beach, for
Appellant.
Robert A. Butterworth, Attorney General, and Sara D.
Baggett, Assistant Attorney General, West Palm Beach, for
Appellee.
Opinion
PER CURIAM.
We have on appeal the judgment and sentence of the trial
court imposing the death penalty upon Leroy Pooler. We
have jurisdiction. Art. V, § 3(b)(1), Fla. Const.

*1377 Leroy Pooler was convicted of first-degree murder
for the shooting death of his ex-girlfriend, Kim Wright
Brown. He also was convicted of burglary and attempted
first-degree murder with a firearm. The facts supporting these
convictions are as follows. On January 28, 1995, Carolyn
Glass, a long-time acquaintance of Kim Brown, told her that
Pooler had said he was going to kill her because if he could
not have her, no one else would. (Evidence showed that
Kim Brown had begun seeing another man.) Two days later,
Pooler knocked on the front door of the apartment where
Kim and her younger brother, Alvonza Colson, lived with
their mother. Seeing Pooler through the door window, Kim
told him that she did not want to see him anymore. Alvonza
opened the door halfway and asked Pooler what he wanted
but would not let him in. When Pooler brandished a gun,
Alvonza let go of the door and tried to run out the door, but
he was shot in the back by Pooler. Pooler pulled Alvonza
back into the apartment by his leg. Kim begged Pooler not to
kill her brother or her and began vomiting into her hands. She
suggested they take Alvonza to the hospital. Pooler originally
agreed but then told Alvonza to stay and call himself an
ambulance while Pooler left with Kim. However, rather than
follow Pooler out the door, Kim shut and locked it behind
him. Alvonza told Kim to run out the back door for her life
while he stayed in the apartment to call for an ambulance.
When he discovered that the telephone wires had been cut,
he started for the back door, just as Pooler was breaking in
through the front entrance.
Pooler first found Alvonza, who was hiding in an area near
the back door, but when he heard Kim yelling for help, he left
Alvonza and continued after Kim. When he eventually caught
up with her, he struck her in the head with his gun, causing
it to discharge. In front of numerous witnesses, he pulled her
toward his car as she screamed and begged him not to kill
her. When she fought against going in the car, Pooler pulled
her back toward the apartment building and shot her several
times, pausing once to say, “You want some more?” Kim had
been shot a total of five times, including once in the head.
Pooler then got into his car and drove away.
The jury recommended death by a vote of nine to
three. The trial court found the following aggravators:
(1) that the defendant had a prior violent felony
conviction (contemporaneous attempted first-degree murder
of Alvonza); (2) that the murder was committed during the
commission of a burglary; and (3) that the murder was
heinous, atrocious, or1 cruel. The trial court found as statutory

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Pooler v. State, 704 So.2d 1375 (1997)
22 Fla. L. Weekly S697

mitigation that the crime was committed while Pooler
was under the influence of extreme mental or emotional
disturbance, but gave that finding little weight. The court
found the following proposed statutory mitigators had not
been established: (1) the defendant's capacity to appreciate the
criminality of his conduct or to conform his conduct to the
requirements of the law was substantially impaired; (2) the
defendant acted under extreme duress or under the substantial
domination of another person; and (3) the defendant's age (he
was 47).
1

The sentencing order uses the conjunction “and.”

As nonstatutory mitigation, the trial court found the
defendant's honorable service in the military and good
employment record, as well as the fact that he was a good
parent, had done specific good deeds, possessed certain
good characteristics, and could be sentenced to life without
parole or consecutive life sentences. The only mitigator given
considerable weight was Pooler's honorable military service;
the others were given some to little weight. The trial court
expressly rejected as unestablished nonstatutory mitigation
that Pooler has a good jail record and an ability to adapt
to prison life; that he has low normal intelligence; that he
has mental health problems; that he is rehabilitable; that the
homicide was the result of a heated domestic dispute; and that
he is unlikely to endanger others and will adapt well to prison.
Concluding that each of the three aggravators standing alone
would outweigh the mitigating evidence, the court sentenced
Pooler to death.
Pooler raises fifteen issues in this appeal. As his first
argument, he contends that the prosecutor made an improper
comment *1378 during voir dire about the presumption of
innocence afforded criminal defendants when he said to a
prospective juror:
Now, as we sit here, Mr. Pooler is presumed to be
innocent.... That doesn't mean that he is innocent, but you
have to presume that.
We disagree with Pooler's characterization of the comment.
The prosecutor's statement was not an improper statement of
the law, nor did it constitute an expression of the prosecutor's
personal belief in Pooler's guilt.
Second, Pooler claims that the trial court erred in failing to
instruct the jury on attempted first-degree felony murder in
the count charging him with attempted first-degree murder
with a firearm. Acknowledging that this Court in State v.
Gray, 654 So.2d 552 (Fla.1995), held that there is no crime

of attempted felony murder in Florida, Pooler nevertheless
argues that had the jury been so instructed, his attempted
first-degree murder conviction might have been based on that
theory, and then that conviction as well as the two aggravators
based on that conviction would have been struck down on
the basis of Gray. First, defense counsel did not request an
instruction on attempted felony murder. Thus, the issue is
waived. Moreover, the argument makes little sense. Pooler
was not entitled to an instruction on a non-existent crime.
Third, Pooler argues that the trial court erred in finding
that the murder of Kim Brown was heinous, atrocious, or
cruel (HAC). He relies on Lewis v. State, 398 So.2d 432,
438 (Fla.1981), in which this Court held that “a murder by
shooting, when it is ordinary in the sense that it is not set
apart from the norm of premeditated murders, is as a matter
of law not heinous, atrocious or cruel.” Pooler contends that
the shooting death of Kim Brown was not accompanied by
any additional acts that would set it apart from the norm of
premeditated murders. In further support of his argument,
Pooler also relies on Bonifay v. State, 626 So.2d 1310
(Fla.1993), wherein we held that the fact that the shooting
victim begged for his life or received multiple gunshot
wounds was insufficient to establish the HAC aggravator in
the absence of evidence that the defendant intended to cause
the victim unnecessary and prolonged suffering. However, we
have also held that the fear, emotional strain, and terror of
the victim during the events leading up to the murder may be
considered in determining whether this aggravator is satisfied,
even where the victim's death was almost instantaneous.
James v. State, 695 So.2d 1229 (Fla.), petition for cert. filed,
No. 97-6104 (U.S. Sept. 18, 1997); Preston v. State, 607 So.2d
404, 409-10 (Fla.1992); Rivera v. State, 561 So.2d 536, 540
(Fla.1990); Adams v. State, 412 So.2d 850, 857 (Fla.1982).
Moreover, the victim's mental state may be evaluated for
purposes of this determination in accordance with a commonsense inference from the circumstances. Swafford v. State, 533
So.2d 270, 277 (Fla.1988). In this case, the record contains
evidence over and above the fact that the victim pleaded for
her life and received multiple gunshot wounds. Kim Brown
learned of Pooler's threat to kill her some two days before
she was killed, giving her ample time to ponder her fate. Any
doubt she may have had about the sincerity of Pooler's threat
must have been dispelled when he visited her apartment that
morning with a gun, forced his way in, and shot her fleeing
brother in the back. One need not speculate too much about
what was going through Kim Brown's mind during this time,
as her fear was such that it caused her to vomit. Even after
Kim succeeded in locking Pooler out of the apartment, he

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Pooler v. State, 704 So.2d 1375 (1997)
22 Fla. L. Weekly S697

broke his way back in, whereupon she and her brother ran
out of the apartment in an effort to escape. Once he caught
up with Kim, Pooler struck her in the head with his gun and
dragged her to his car as she screamed and begged for him not
to kill her. Pooler's final words to her before killing her were,
“Bitch, didn't I tell you I'd kill you?” and “You want some
more?” We conclude that the circumstances of the victim's
death support the trial court's finding that the HAC aggravator
had been established.
Pooler's fourth claim is that the trial court erred in
finding that the prior violent felony aggravator had been
established where the underlying felony (in this case,
the attempted murder of Alvonza Colson) was committed
contemporaneously with the capital *1379 felony. However,
as Pooler concedes, we have rejected this argument in the past.
Contemporaneous convictions prior to sentencing can qualify
as previous convictions of violent felony and may be used
as aggravating factors in cases where the contemporaneous
crimes were committed upon separate victims. E.g., Windom
v. State, 656 So.2d 432, 439 (Fla.1995); Zeigler v. State,
580 So.2d 127, 129 (Fla.1991); Correll v. State, 523 So.2d
562, 568 (Fla.1988); Lucas v. State, 376 So.2d 1149, 1152-53
(Fla.1979). We therefore find no error.
Fifth, Pooler challenges the trial court's finding that he had
not established that his capacity to appreciate the criminality
of his conduct or to conform his conduct to the requirements
of the law was substantially impaired.2 Our review of
the record reveals that it contains competent substantial
evidence to support the trial court's rejection of this mitigating
circumstance. See Nibert v. State, 574 So.2d 1059, 1062
(Fla.1990) (trial court may reject proposed mitigating factor
if record contains competent substantial evidence to support
rejection). There was no evidence that Pooler's capacity either
to appreciate the criminality of his conduct or conform his
conduct to the law was impaired at the time of Kim Brown's
murder. Although Pooler presented expert testimony that his
performance on various intelligence and cognitive tests was
below-average to borderline, one of his own experts testified
on cross-examination that in his opinion, Pooler's capacity
to appreciate the criminality of his conduct and to conform
his conduct to the requirements of the law was not impaired.
There was also evidence revealing that Pooler was sufficiently
intelligent to graduate from high school, receive an honorable
discharge after six years of service in the Marine Corps, and
hold down the same job for some seven years.

2

§ 921.141(6)(f), Fla. Stat. (1995).

Sixth, Pooler asserts that the trial court erred in finding
that Pooler had failed to establish that he was under extreme
duress or under the substantial domination of another person
at the time the murder was committed.3 In Toole v. State, 479
So.2d 731, 734 (Fla.1985), we stated that “duress” refers not
to internal pressures but rather to external provocations such
as imprisonment or the use of force or threats. There was
no evidence presented to support Pooler's assertion that he
acted under extreme duress at the time of the murder. The
fact that his former girlfriend had been seeing another man,
even if it caused Pooler to become distraught, simply does not
qualify as external provocation for purposes of this statutory
mitigator.
3

§ 921.141(6)(e), Fla. Stat. (1995).

The next five claims challenge the trial court's rejection
of various nonstatutory mitigators requested by Pooler. In
rejecting Pooler's proposed good jail record and demonstrated
ability to adapt to prison life, the trial court referred solely to
the testimony of Deputy Sheriff Arthur Rack, a classification
officer at the Palm Beach County Jail where Pooler was
housed prior to and during his trial. Specifically, the trial
court relied on Rack's testimony that Pooler's classification
file for that year contained a single disciplinary report for
threatening another inmate. While the decision as to whether
a particular mitigating circumstance is established lies with
the judge, there must be competent substantial evidence to
support that determination. Stano v. State, 460 So.2d 890,
894 (Fla.1984). We agree with Pooler that Rack's testimony
regarding the reported threat4 does not constitute competent
substantial evidence to support the trial court's rejection of
this particular nonstatutory mitigation. According to Rack,
he did not personally investigate the incident and the report
was never brought to a hearing or otherwise concluded
because of “manpower shortage.” Rack further testified that
based upon the absence of any other reported incidents in
Pooler's file, it could be presumed that he was a well-behaved
inmate. Because the trial court based its finding solely on
the uninvestigated report, we conclude that it was an abuse
of discretion to reject this particular mitigation. However,
in rejecting other proposed nonstatutory mitigation, the trial
court referred to Pooler's *1380 presentence investigation
(PSI) report, which revealed that Pooler had been arrested
about twenty-six times between 1972 and 1994, had served
five sentences in Louisiana between 1975 and 1988 for
aggravated assault, aggravated assault with a deadly weapon,
battery, and resisting an officer, and was placed on probation

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Pooler v. State, 704 So.2d 1375 (1997)
22 Fla. L. Weekly S697

for a 1994 aggravated assault charge in Florida. The PSI
report not only renders the trial court's above error harmless,
but it also constitutes competent substantial evidence to
support the trial court's finding that Pooler failed to establish
both that he is rehabilitable and that he is unlikely to endanger
others and would adapt well to prison. Thus, there was no
abuse of discretion as to the rejection of those two proposed
mitigating factors.
4

The report was not admitted into evidence.

Pooler also takes issue with the trial court's rejection of his
low-normal intelligence as nonstatutory mitigation. The trial
court found that this was not established as mitigation because
although his I.Q. tested at 80, Pooler's functional level was
higher, as evidenced by his education, military service, and
employment record. We find no abuse of discretion in the trial
court's ruling.
The trial court further found that Pooler had not established
that the murder was the result of a heated domestic dispute.
Again, we find no abuse of discretion. Although the evidence
established that Pooler had had a romantic relationship with
Kim Brown, that relationship had ended. Nor was there any
evidence the two had been in the middle of a heated dispute
at the time of the murder. In any event, the trial court took
into account Pooler's subjective view of his relationship with
the victim when finding that Pooler was under the influence
of extreme mental or emotional disturbance at the time of the
murder.
Issue twelve, in which Pooler claims a denial of due process
because the record on appeal did not contain the PSI report
relied upon by the trial court in rejecting nonstatutory
mitigation, is now moot because the record has since been
supplemented.
The thirteenth issue we address is Pooler's claim that the trial
court erred in departing from the sentencing guidelines for
the offenses of attempted first-degree murder with a firearm
and burglary of a dwelling while armed without issuing a
written contemporaneous departure order. In Padilla v. State,
618 So.2d 165, 170 (Fla.1993), we reiterated that a sentencing
judge must set forth his or her departure reasons in writing at
the time of sentencing and cannot do so after the sentence has
been imposed. However, we did not state that these written
reasons had to be contained in an order. In this case, the
sentencing guidelines scoresheet contained a section entitled
“Reasons for Departure,” under which the following language
was handwritten: “Defendant has an unscored capital murder

conviction arising from the same set of circumstances.”
The sentencing guidelines scoresheet was signed and dated
February 23, 1996, the same day that Pooler was sentenced
for the noncapital offenses. This was the same reason given
orally by the trial judge at Pooler's sentencing. We therefore
find no error.
Fourteenth, Pooler challenges the constitutionality of
Florida's death penalty on numerous grounds. Specifically,
he argues that the death penalty in Florida, both facially and
as applied, is unconstitutional for the following reasons: (1)
the standard jury instruction for the felony murder aggravator
fails to limit the application of the death penalty and creates
a presumption of death for felony murders; (2) permitting
the jury to find aggravators by majority vote violates article
I, sections 9, 16, and 17 of the Florida Constitution and
the Fifth, Sixth, Eighth, and Fourteenth Amendments of the
United States Constitution; (3) the lack of judicial standards
for ensuring competent capital defense representation in
cases where the attorney is court-appointed leads to uneven
application of the law; (4) the ambiguous role of the trial
judge in a capital case (who on the one hand is largely
bound by the jury's recommendation but on the other is
supposed to be the ultimate sentencer) permits circumvention
of constitutional errors because special verdicts are not
required where multiple homicide theories are submitted
to the jury and because the jury is not required to reveal
what aggravating and mitigating circumstances were found;
(5) the trial judge was selected by a racially discriminatory
*1381 system (none of Broward County's forty-three circuit
judges is black, despite a 13.5% representation in the county's
population); (6) appellate review is no longer heightened;
(7) the aggravating statutory factors are not interpreted in
accordance with the rule of lenity but instead are very broadly
interpreted against the defendant; (8) the contemporaneous
objection rule institutionalizes disparate application of the
law in capital sentencing; (9) the lack of special verdicts
makes it impossible for a trial court to know what aggravating
and mitigating circumstances the jury found; and (10)
electrocution is cruel and unusual punishment in light of
evolving standards of decency and the availability of less
cruel but equally effective methods of execution. We have
previously rejected most of these claims as meritless. See
Hunter v. State, 660 So.2d 244, 252-53 (Fla.1995) (rejecting
claims (1) and (6) above), cert. denied, 516 U.S. 1128, 116
S.Ct. 946, 133 L.Ed.2d 871 (1996); Fotopoulos v. State, 608
So.2d 784, 794 n. 7 (Fla.1992) (rejecting claims (3), (4), (8),
(9), and (10) above). Likewise, we find challenges (2), (5),
and (7) to be without merit.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Pooler v. State, 704 So.2d 1375 (1997)
22 Fla. L. Weekly S697

Finally, we address Pooler's claim that the death sentence
is disproportionate in this case, where the evidence showed
that he and the victim had a domestic relationship. We
disagree. We have never approved a per se “domestic dispute”
exception to the imposition of the death penalty. As we
explained in Spencer v. State, 691 So.2d 1062 (Fla.1997),
cert. denied, 522 U.S. 884, 118 S.Ct. 213, 139 L.Ed.2d 148
(1997), there have been cases involving domestic disputes in
which we struck the cold, calculated, and premeditated (CCP)
aggravator on the basis that the heated passions involved
negated the “cold” element of CCP.5 However, our reason
for reversing the death penalty in those cases was that
the striking of that aggravator rendered the death sentence
disproportionate in light of the overall circumstances. E.g.,
White v. State, 616 So.2d 21 (Fla.1993); Santos v. State,
591 So.2d 160 (Fla.1991); Douglas v. State, 575 So.2d 165
(Fla.1991); Farinas v. State, 569 So.2d 425 (Fla.1990); see
also Wright v. State, 688 So.2d 298 (Fla.1996) (finding death
sentence disproportionate where aggravating circumstances
of prior violent felony and commission during a burglary were
all related to defendant's ongoing struggle with the victim and
evidence in mitigation was copious); Nibert, 574 So.2d 1059
(death sentence vacated as disproportionate in light of all the
mitigating evidence that should have been found where sole
aggravating circumstance was HAC). Indeed, we have upheld
the death penalty as proportionate in a number of cases where
the victim had a domestic relationship with the defendant. See
Spencer; Cummings-El v. State, 684 So.2d 729 (Fla.1996),
cert. denied, 520 U.S. 1277, 117 S.Ct. 2460, 138 L.Ed.2d 216
(1997); Henry v. State, 649 So.2d 1366 (Fla.1994); Porter v.
State, 564 So.2d 1060 (Fla.1990). In Spencer, we affirmed
the defendant's death sentence for the murder of his wife
where the trial court found the aggravating circumstances of
prior violent felony conviction and HAC and a number of
mitigating circumstances, both statutory and nonstatutory. In
this case, the established mitigation was similar to that in
Spencer but there was also the additional aggravator that the
murder was committed during the commission of a felony.
Thus, under the circumstances of this case and in comparison
to other death cases, we cannot say that the death sentence is
disproportionate.6
5

Although the CCP aggravator was not found in this case,
the evidence does not even suggest that Kim Brown
was killed during a heated domestic dispute or in a
sudden fit of rage. To the contrary, Pooler had previously
announced to a mutual acquaintance his intention to kill
Kim Brown. There was no evidence that there had been

any exchange of words between Pooler and Kim Brown
on the day of the murder.

6

This case is clearly distinguishable from Farinas v.
State, 569 So.2d 425 (Fla.1990), in which the defendant
attacked only the victim. Here, Pooler not only killed the
victim but also shot her brother in the back as he was
attempting to flee.

The convictions and sentences of Leroy Pooler are hereby
affirmed.
It is so ordered.

*1382 OVERTON, GRIMES, HARDING and WELLS, JJ.,
concur.
SHAW, J., concurs as to conviction, and concurs in result only
as to sentence.
ANSTEAD, J., concurs in part and dissents in part with an
opinion in which KOGAN, C.J., concurs.
ANSTEAD, Justice, concurring in part and dissenting in part.
I differ only with the majority's resolution of the issue of
proportionality. On that issue, I would hold that our decision
in a case involving virtually identical facts, Farinas v. State,
569 So.2d 425 (Fla.1990), mandates the imposition of a life
sentence here.
In Farinas, the defendant confronted his former girlfriend in
a setting similar to that involved herein:
On November 25, 1985, the victim and her sister drove
their father to work. Farinas was waiting outside the home
and followed the car. Farinas continued to follow the car
after the two women dropped their father off at work and
tried several times to force the victim's car off the road,
finally succeeding in stopping her vehicle. Farinas then
approached the victim's car and expressed anger at the
victim for reporting to the police that he was harrassing her
and her family.
When the victim's sister urged her to drive away, Farinas
leaned into the vehicle and removed the keys from the
ignition, ordered the victim out of the vehicle, and guided
her by the arm to his car. After returning the keys to the
victim's sister, Farinas drove away with the victim in his car
despite the pleas of the victim and her sister. When Farinas
stopped the car at a stoplight near the Palmetto Expressway,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Pooler v. State, 704 So.2d 1375 (1997)
22 Fla. L. Weekly S697

the victim jumped out of the car and ran, screaming and
waving her arms for help. Farinas also jumped from the
car and fired a shot from his pistol which hit the victim in
the lower middle back. According to the medical examiner,
this injury caused instant paralysis from the waist down.
Farinas then approached the victim as she lay face down
and, after unjamming his gun three times, fired two shots
into the back of her head.
....
... Evidence introduced at trial established that Farinas
ignored the victim's pleas for mercy. The fact that the victim
jumped from the car and ran from Farinas while screaming
for help indicates that the victim was in frenzied fear for
her life. As noted by the trial court, after Farinas paralyzed
the victim from the waist down with a gunshot through
her spine, he approached her and fired two shots into the
back of her head after unjamming the gun three times. The
victim was fully conscious during the time he unjammed
the gun and was aware of her impending demise from the
defendant.
Id. at 427-31. Despite these circumstances, this Court
concluded that the death penalty should not be imposed
because the defendant acted under the influence of extreme
mental or emotional disturbance:
During the two-month period after the victim moved out
of Farinas' home, he continuously called or came to the
home of the victim's parents where she was living and
would become very upset when not allowed to speak with
the victim. He was obsessed with the idea of having the
victim return to live with him and was intensely jealous,
suspecting that the victim was becoming romantically
involved with another man. See Kampff v. State, 371 So.2d
1007 (Fla.1979). We find it significant, also, that the record
reflects that the murder was the result of a heated, domestic
confrontation. Wilson v. State, 493 So.2d 1019 (Fla.1986).
Therefore, although we sustain the conviction for the firstdegree murder of Elsidia Landin and recognize that the
trial court properly found two aggravating circumstances
to be applicable, we conclude that the death sentence is
not proportionately warranted in this case. Wilson; Ross v.
State, 474 So.2d 1170 (Fla.1985).
Id. at 431. In addition to murder, Farinas was also convicted
and sentenced for two other contemporary violent felonies
arising from the same incident: armed burglary and armed
kidnapping, just as Pooler has been *1383 convicted of the
wounding of the victim's brother here.

Pooler cites to the trial court's refusal to follow our holding
in Farinas that the circumstance of extreme emotional
disturbance is entitled to significant weight. Instead, he notes
that the trial court refused to consider the broken personal
relationship between the parties on the basis that “women
are entitled to the same protection of the law as anyone
else.” It is apparent that the trial court, in an apparent effort
to vindicate women's rights by imposing the death penalty
on Pooler, has misconstrued our prior decisions concerning
the proper consideration of extreme emotional disturbance in
determining an appropriate penalty. See, e.g., Farinas.
This Court has emphatically held that there is no “domestic
relations” exception to the death penalty. See Spencer v. State,
691 So.2d 1062 (Fla.1996). However, just as emphatically,
this Court has repeatedly held that the presence of an extreme
emotional disturbance in a domestic encounter should be
given significant weight; and we have repeatedly noted the
prevalence and significance of such disturbances in murders
occurring in domestic relations settings. Wright v. State,
688 So.2d 298 (Fla.1996); Wilson v. State, 493 So.2d 1019
(Fla.1986); Ross v. State, 474 So.2d 1170 (Fla.1985); Kampff
v. State, 371 So.2d 1007 (Fla.1979). Indeed, Justice Rosemary
Barkett, Florida's first, and, to date, only woman Supreme
Court Justice, has traced this Court's treatment of this issue
in great detail:
I do not suggest that there is an “unrequited love”
exception to the death penalty. Nonetheless, this Court
consistently has accepted as substantial mitigation the
inflamed passions and intense emotions of such situations.
In almost every other case where a death sentence arose
from a lovers' quarrel or domestic dispute, this Court
has found cause to reverse the death sentence, regardless
of the number of aggravating circumstances found, the
brutality involved, the level of premeditation, or the jury
recommendation. See Blakely v. State, 561 So.2d 560
(Fla.1990) (death penalty disproportional despite finding
of heinous, atrocious, or cruel, and cold, calculated, and
premeditated); Amoros v. State, 531 So.2d 1256, 1261
(Fla.1988); Garron v. State, 528 So.2d 353, 361 (Fla.1988);
Fead v. State, 512 So.2d 176, 179 (Fla.1987), receded
from on other grounds, Pentecost v. State, 545 So.2d 861,
863 n. 3 (Fla.1989); Irizarry v. State, 496 So.2d 822,
825-26 (Fla.1986); Wilson v. State, 493 So.2d 1019, 1023
(Fla.1986); Ross v. State, 474 So.2d 1170, 1174 (Fla.1985);
Herzog v. State, 439 So.2d 1372, 1381 (Fla.1983); Blair v.
State, 406 So.2d 1103, 1109 (Fla.1981); Phippen v. State,
389 So.2d 991 (Fla.1980); Kampff v. State, 371 So.2d 1007
(Fla.1979); Chambers v. State, 339 So.2d 204 (Fla.1976);

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Pooler v. State, 704 So.2d 1375 (1997)
22 Fla. L. Weekly S697

Halliwell v. State, 323 So.2d 557 (Fla.1975); Tedder v.
State, 322 So.2d 908 (Fla.1975); cf. Hamilton v. State,
547 So.2d 630 (Fla.1989) (aggravating circumstances and
judgment of guilt reversed, remanded for new trial). The
Court has even reversed death sentences where, as in
Porter's case, the defendant murdered two people during
the same violent outburst. See Garron; Wilson; Phippen;
cf. Hamilton. Generally when we have affirmed death
sentences in analogous situations, we have noted that
the defendants had prior, unrelated convictions of violent
felonies. See Hudson v. State, 538 So.2d 829 (Fla.)
(defendant was on community control for sexual battery
when he committed the murder), cert. denied, 493 U.S.
875, 110 S.Ct. 212, 107 L.Ed.2d 165 (1989); Lemon v.
State, 456 So.2d 885 (Fla.1984) (defendant committed
murder shortly after serving prison sentence for assault
with intent to commit first-degree murder), cert. denied,
469 U.S. 1230, 105 S.Ct. 1233, 84 L.Ed.2d 370 (1985);
Williams v. State, 437 So.2d 133 (Fla.1983) (defendant had
been convicted of aggravated assault, and was on parole
for possession of firearm by a convicted felon, when he
committed the murder), cert. denied, 466 U.S. 909, 104
S.Ct. 1690, 80 L.Ed.2d 164 (1984); King v. State, 436
So.2d 50 (Fla.1983) (defendant had a prior conviction
of manslaughter for killing a woman with an axe), cert.
denied, 466 U.S. 909, 104 S.Ct. 1690, 80 L.Ed.2d 163
(1984). There is no finding that Porter had any *1384
prior, unrelated violent felony convictions before this case
arose.
Porter v. State, 564 So.2d 1060, 1065 (Fla.1990) (Barkett, J.,
concurring in part and dissenting in part).
This does not mean that spouses, children, siblings, parents
or intimate friends are entitled to less protection of the
law. It does mean, however, that the extreme mental or
emotional breakdowns that often occur in such relationships
cannot be ignored or given no weight in determining whether
the crime is among the worst of the worst and “the most
aggravated and the least mitigated” for which the death
End of Document

penalty is reserved. State v. Dixon, 283 So.2d 1 (Fla.1973).
As Justice Barkett in Porter has previously documented,
this Court has invariably concluded that killings occurring
under the “inflamed passions and intense emotions of such
situations” do not fall into that extreme category, even where
“the defendant murdered two people during the same violent
outburst.”
As noted above, this case is almost identical to Farinas.
Indeed, the only significant difference in the two cases is that
there was no nonstatutory mitigation found in Farinas, while
there is extensive nonstatutory mitigation present here. This
mitigation is briefly described by the majority:
As nonstatutory mitigation, the trial court found the
defendant's honorable service in the military and good
employment record, as well as the fact that he was a good
parent, had done specific good deeds, possessed certain
good characteristics, and could be sentenced to life without
parole or consecutive life sentences. The only mitigator
given considerable weight was Pooler's honorable military
service; the others were given some to little weight. The
trial court expressly rejected as unestablished nonstatutory
mitigation that Pooler has a good jail record and an ability
to adapt to prison life; that he has low normal intelligence;
that he has mental health problems; that he is rehabilitable;
that the homicide was the result of a heated domestic
dispute; and that he is unlikely to endanger others and will
adapt well to prison.
Majority op. at 1377. Hence, Pooler's plea for a life sentence
is supported not only by our prior treatment of similar cases
like Farinas, but also by the presence of substantial mitigation
not found in Farinas.

KOGAN, C.J., concurs.
All Citations
704 So.2d 1375, 22 Fla. L. Weekly S697
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

